                    Office of Inspector General
                    U.S. Department of Transportation




Semiannual Report to Congress
October 1, 2008 – March 31, 2009
                                                             Table of Contents
From the Inspector General . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
In Focus: Top Management Challenges Facing DOT  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
           In Focus: Ensuring Accountability and Transparency .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
           Rail & Maritime Programs and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
           Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
           Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
           Department-Wide Issues . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
Work Planned and in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 49
           Highway and Transit Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 52
           Rail & Maritime Programs and Economic Analysis .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53
           Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54
           Acquisition and Procurement .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 56

Statistical Performance Data .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 57
           Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58
           Completed OIG Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 58
           OIG Reports with Recommendations that Questioned Costs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 59
           OIG Reports with Recommendations that Funds Be Put to Better Use .  .  .  .  .  .  .  .  .  . 60
           OIG Reports Recommending Changes for Safety, Economy, or Efficiency .  .  .  .  .  .  . 61
           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 62
           OIG Published Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63
           Office of Inspector General Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 70
           Unresolved Recommendations Over 6 Months Old .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 71
           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
           Judicial and Administrative Actions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 73
           Profile of All Pending Investigations as of March 31, 2009 .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 74

2008 Awards and Recognition . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 97
Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 100
Abbreviations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 101
                                                From the Inspector General




I am pleased to present the Department of Transportation Office of Inspector General’s Semiannual
Report to Congress for the 6-month period ending March 31, 2009. I commend and thank the hard-
working OIG staff for their outstanding efforts and dedication to our mission. Our audit and investigative
work continues to support the Department’s goals of safety, reduced congestion, global connectivity,
environmental stewardship, security, and organizational excellence. In addition, our work reflects our
strong commitment to provide in-depth analyses on key transportation issues to serve and inform the
public and congressional lawmakers.

Our work covered a wide range of challenges facing DOT as well as progress made, as noted in our
Top Management Challenges report issued this period. Over the last 6 months, we issued 46 reports
with 170 recommendations, including financial recommendations totaling nearly $430 million.

Our audit work focused on significant aviation issues such as improving runway safety and advancing
FAA’s modernization efforts to enhance mobility and reduce congestion. This work resulted in multiple
congressional testimonies, with special focus on reauthorization issues and FAA’s specific challenges
with moving forward with the Next Generation Air Transportation System (NextGen).

We also recommended critical safety improvements to prevent obsolescence in the Nation’s aging
surface transportation infrastructure. These included switching to data-driven oversight to strengthen
bridge safety, meeting congressional requirements for the NAFTA cross-border demonstration project,
and revising safety regulations to improve oversight of the Nation’s railroads.

In addition, we recommended improvements to DOT’s information security program and contract
operations and issued quality control reviews of DOT’s financial statements audits.

Our investigative work resulted in 60 convictions and a total of nearly $60 million in fines, restitutions,
and recoveries. These activities focused on preventing fraud in the areas of helicopter and aircraft
parts, shipments of hazardous materials, construction grants and contracts, shipment of household
goods, Disadvantaged Business Enterprise contracts, and ethics issues concerning DOT employees.




                                                                         Semiannual Report to Congress  •  iii
Going forward, we will begin structuring our workload to help DOT effectively oversee the $48 billion
provided for transportation programs in the American Recovery and Reinvestment Act of 2009. As
part of this effort, we recently reported on the specific challenges DOT faces in managing the large
infusion of funds and meeting new statutory and Office of Management and Budget requirements.

Finally, I would like to welcome Secretary LaHood to DOT, and look forward to working closely with
him, his team, and the incoming modal administrators to provide Americans with a 21st century trans-
portation system that meets the national objectives of general welfare, economic growth and stability,
and the security of the United States.




Calvin L. Scovel III
                                                      In Focus: Top Management
                                                          Challenges Facing DOT
We  recently  released  our  tenth
annual  report  on  the  top  management
challenges that face DOT in FY 2009. In
his March 10, 2009, testimony, the Inspec-             FY 2009 Top Management Challenges
tor General discussed major actions that
                                                        •	   Enhancing Aviation Safety and Maintaining
DOT should take to maximize investments
                                                             Confidence in FAA’s Ability To Provide Effective
in transportation and ensure safety. The
                                                             Oversight of a Rapidly Changing Industry
United States transportation system is vital to
                                                        •	   Enhancing Mobility and Reducing Congestion in
the Nation’s economy and the quality of life
                                                             America’s Transportation System
for all Americans. Each year, DOT spends
about $70 billion on a wide range of efforts            •	   Developing a Plan To Address Projected Highway
                                                             and Transit Funding Shortfalls
to enhance mobility and safety. This year, the
American Recovery and Reinvestment Act                  •	   Maximizing the Return on Current Highway and
infuses an unprecedented additional $48 bil-                 Transit Infrastructure Investments
lion for Department programs, presenting new            •	   Operating the National Airspace System While
challenges throughout the Government and                     Developing and Transitioning to the Next Genera-
particularly for DOT.                                        tion Air Transportation System

                                                        •	   Protecting Against Increasing Cyber Security Risks
While such an infusion of new funds is needed                and Enhancing the Protection of Personally Identifi-
                                                             able Information
to create or preserve jobs and improve the
United States transportation system, it will            •	   Preventing Catastrophic Failures and Obsoles-
also create significant oversight issues for                 cence in the Nation’s Aging Surface Transportation
                                                             Infrastructure
DOT and all of the Operating Administrations
receiving stimulus funds.                               •	   Improving Contract Operations and Maintaining
                                                             Procurement Integrity

Our FY 09 top management challenges report              •	   Enhancing and Deploying Programs for Reducing
compliments the progress DOT made this                       the Serious Consequences of Surface Transporta-
                                                             tion Crashes
past year on a number of important fronts, in-
cluding commissioning several new runways
to improve capacity and reduce delays within             Although addressing these challenges in an
the National Airspace System; committing to              environment of uncertain financial markets,
data-driven, risk-based oversight of bridge              volatile fuel prices, and rising deficits will be a
safety; and receiving a “clean” opinion on DOT’s
                                                         daunting task, DOT must continue to focus its
financial statements. However, more remains to
                                                         efforts along three cross-cutting areas: ensuring
be done to improve oversight in other near-term
                                                         accountability, effectiveness, and efficiency in
areas such as maintaining the safety of the trav-
                                                         Federal funding for transportation projects; im-
eling public, bolstering the integrity of a rapidly
                                                         proving oversight of aviation and surface safety;
changing airline industry, relieving congestion
                                                         and ensuring the solvency of transportation trust
in the air and on the ground, and establishing
                                                         funds, thereby improving mobility and reducing
long-term financing mechanisms for aviation
                                                         congestion.
and surface transportation programs.

                                                                              Semiannual Report to Congress  •  1
                                                    Improving Oversight of Aviation and Surface
                                                    Safety
 Ensuring Accountability, Effectiveness, and
 Efficiency in Federal Funding for Transportation   Improving transportation safety is DOT’s primary
 Projects                                           goal. This past year, DOT has improved safety
                                                    on a number of fronts, including launching an
                                                    industry/government partnership to improve
 DOT is taking steps to promote accountability      runway safety and committing to data-driven,
 and transparency in transportation funding as-     risk-based oversight of bridge safety. However,
 sociated with the recovery program. We have        there are still numerous vulnerabilities in aviation
 been working with DOT officials to review each     and surface transportation programs. For ex-
 Operating Administration’s management of           ample, drastic changes in airline consolidation
 recovery program funds. Specifically, we are       and downsizing continue to impact the aviation
 examining potential risks related to program       industry, and widely publicized lapses in FAA
 structure, Operating Administrations’ oversight    oversight emphasize the need to continually
 process and staffing, state and local grantees’    adapt its oversight of air carriers, external repair
 management and technical capabilities, cost        facilities, and runways. In addition, the average
 and schedule estimates, contract management        bridge in the United States is 43 years old, and
 and oversight, and fraud deterrence efforts.       almost one in four bridges is either structurally
 Based on our initial assessment and our past       deficient and in need of repair or functionally ob-
 and  ongoing  work,  we  found  four  immediate    solete and too narrow for today’s traffic volumes.
 areas of potential vulnerability that DOT needs    To enhance the margin of safety in the Nation’s
 to address:                                        transportation programs, DOT needs to focus
                                                    on three key areas:
  •	 building an effective acquisition workforce
                                                     •	 maintaining public confidence in FAA’s abil-
     to achieve the goals of the economic recov-
                                                        ity to oversee a dynamic aviation industry,
     ery program;
                                                     •	 addressing obsolescence in the Nation’s
  •	 establishing effective contracting mecha-
                                                        aging surface infrastructure and enhancing
     nisms and financial practices to make sound
                                                        surface safety programs, and
     decisions under tight timeframes and avoid
     wasteful spending;                              •	 protecting networks and computers against
                                                        cyber security risks.
  •	 proactively reforming mechanisms to com-
     bat fraud, waste, and abuse in an environ-
     ment of significantly increased funding to
     state and local levels; and
  •	 developing  comprehensive  oversight  of
     highway and transit investments.




2   •  Top Ten Management Challenges Faces DOT
                                                 In Focus: Top Management
                                                Challenges Facing DOT (cont.)
Ensuring the Solvency of
Transportation Trust Funds, thereby
Improving Mobility and Reducing Congestion

A significant challenge for DOT regarding fund-
ing for Federal highway, transit, and aviation pro-
grams is ensuring solvency in the transportation
trust funds to enhance mobility and reduce con-
gestion. Congestion-related problems impact
all modes of transportation. For example, flight
delays and cancellations have continued to be a
concern in 2008, and the Nation’s highways are
experiencing record levels of congestion. DOT
estimates that such problems cost the Nation
almost $200 billion per year. Therefore, in an
effort to support funding levels, DOT must focus
on the following challenges:
 •	 maintaining the solvency of the Highway
    and Aviation Trust Funds,
 •	 operating  and  maintaining  the  National
    Airspace  System  while  developing  and
    transitioning  to  the  next  generation  air
    transportation system, and
 •	 reducing aviation and surface congestion. n




                                                            Semiannual Report to Congress  •  3
                                                        Audits and Investigations




                                         Aviation and Special Programs

Audits                                                  of FAA facilities. The objectives of our audit
                                                        were to determine if FAA has (1) developed and
FAA’s Management and Maintenance                        implemented a comprehensive strategy to ef-
                                                        fectively manage the replacement, repair, and
of Air Traffic Control Facilities                       modernization of its air traffic control facilities and
December 15, 2008                                       (2) allocated sufficient funds to carry out those
                                                        activities. We found that many air traffic control
This report represents the results of our audit of
                                                        facilities have exceeded their useful lives. While
the FAA’s management and maintenance of air
                                                        the average facility has an expected useful life of
traffic control facilities. FAA has invested billions
                                                        approximately 25 to 30 years, 59 percent of FAA
of dollars in new equipment for handling higher
                                                        facilities are over 30 years old. FAA is encoun-
levels of air traffic in more complex airspace.
                                                        tering maintenance problems at several facilities
However, the facilities that house those systems
                                                        due to its previous, decentralized approach to
are aging and showing signs of deteriorating
                                                        facility maintenance and its lack of a structured
physical conditions. We conducted this audit
                                                        process for funding recurring maintenance. FAA
at the request of the Chairman of the House
                                                        has historically focused on addressing mainte-
Committee on Transportation and Infrastructure,
                                                        nance problems as they arose, but it is beginning
who expressed concerns about the overall state
                                                        to move toward a proactive approach that merges

                                                                           Semiannual Report to Congress  •  5
                                                        tory authority to auction the slots and stated that
                                                        if FAA moves forward and uses the auction pro-
 facility–level priorities with better national over-   ceeds, it would violate the Anti-deficiency Act
 sight. However, FAA’s new processes still focus        and the Purpose Statute. DOT disagreed and,
 on sustaining the existing system, and FAA must        based on a legal opinion from the Department
 work to ensure it has a system of facilities well–     of Justice (DOJ), FAA signed the final rules to
 equipped for the long term. Our recommenda-            auction the slots. In December, the U.S. Court
 tions focus on the actions FAA needs to take to        of Appeals issued a stay, which prevented FAA
 maintain its existing air traffic control facilities   from auctioning the slots pending further judicial
 and effectively transition to Next Generation Air      review. Consistent with the Chairmen’s request,
 Transportation System (NextGen). They include          we focused our review on two issues related to
 (1) determining what types of facilities will be       the rulemaking activities. First, in light of the
 needed, how many facilities will be needed,            GAO opinion, did FAA and DOT actions con-
 and where they should be located to effectively        stitute a willful violation of the Act and Purpose
 support NextGen; (2) identifying target dates          Statute? Second, were career FAA and DOT staff
 for  realigning  or  consolidating  facilities;  and   coerced, compelled, or otherwise required by
 (3) establishing realistic funding requirements for    their supervisors to knowingly engage in illegal
 maintaining existing sites until those dates.          conduct? We found that FAA and DOT officials
                                                        have a valid defense against the anti-deficiency
                                                        charge because they can demonstrate a good
 Letter to Chairmen Murray and                          faith belief that what they were doing was law-
 Oberstar Regarding Review of DOT                       ful,  based  on  DOJ’s  external,  legal  opinion.
 and FAA Actions Related to Slot                        A final decision on whether the Act was violated
                                                        will depend on how various, interrelated legal is-
 Auctions at New York Airports                          sues are resolved in Federal courts. In addition,
 January 15, 2009                                       while FAA staff felt considerable pressure from
                                                        the Department, they told us that they were not
 This letter to Chairmen Murray and Oberstar
                                                        coerced or otherwise compelled to agree with
 represents the results of our review of the DOT
                                                        the decision to sign the final rules for the slot
 and the FAA’s actions regarding final rulemaking
                                                        auctions.
 activities related to the auction of take–off and
 landing slots at LaGuardia, John F. Kennedy, and
 Newark airports. This review was requested by          Key Issues for Reauthorizing the FAA
 Patty Murray, Chairman of the Senate Subcom-           February 11, 2009
 mittee on Transportation, Housing and Urban
 Development, and Related Agencies and James            The Inspector General testified before the House
 Oberstar, Chairman of the House Committee on           Subcommittee on Aviation on key issues regard-
 Transportation and Infrastructure. FAA planned         ing FAA reauthorization. FAA does not have a
 to auction up to 66 slots at the three New York        long–term authorization or funding mechanism
 airports in January 2009. However, in Septem-          in place and has been operating on a short–term
 ber 2008, the Government Accountability Office         extension since September, which expires next
 (GAO) found that FAA does not have the statu-          month. However, the aviation environment has


6   •  Aviation and Special Programs
                                                      Audits and Investigations
                                                                 Aviation and Special Programs
changed significantly since Con-
gress last debated proposals for reautho-
rizing and financing FAA. The current economic        Actions Taken and Needed to Improve
crisis and volatile fuel costs have forced many       FAA’s Runway Safety Area Program
airlines to make major service cuts, although
                                                      March 3, 2009
load factors remain high. The decline in traffic
has also impacted the Aviation Trust Fund, the        This report represents the results of our audit on
largest source of revenue for FAA’s $15 billion an-   the FAA’s Runway Safety Area (RSA) Program.
nual budget. Notwithstanding the uncertainties        Specifically, we assessed airport sponsors’ and
facing the industry, this situation provides FAA      FAA’s progress and challenges in fulfilling the
with opportunities to focus on key challenges it      congressional mandate to improve 454 RSAs
must address to be strategically positioned for       by 2015. Overall, we found that there has been
an industry rebound. The Inspector General            significant progress since 2000 with the Agency
noted four overarching areas that need to be at       reporting improvements for more than 70 percent
the center of FAA’s efforts over the next several     of the 454 RSAs. FAA has also been generally
years (1) maintaining public confidence in FAA’s      effective in identifying, prioritizing, and funding
ability to provide oversight of a dynamic indus-      needed RSA improvements. However, FAA still
try, (2) setting expectations and budget priorities   faces major challenges (i.e., man–made, natu-
for Next Generation Air Transportation System,        ral, environmental, and legal) in improving sev-
(3)  bolstering  key  safety  workforces,  and        eral RSAs, including those at 11 of the Nation’s
(4) financing future airport development while        30 largest airports. Moreover, FAA needs to
facing  unstable  long–term  airport  funding         focus on modifying or removing non–standard
mechanisms.                                                           navigation aids in RSAs, includ-
                                                                      ing some that pose considerable
                                                                      safety risks to aircraft and their
                                                                      passengers if struck during a
                                                                      runway  overrun.  Another  key
                                                                      focus area for FAA is improv-
                                                                      ing the quality of its RSA data.
                                                                      Ultimately, this will enhance FAA’s
                                                                      annual RSA report to Congress,
                                                                      which currently does not provide
                                                                      sufficient  detail  for  decision
                                                                      makers on completed or needed
                                                                      RSA  improvements.  Our  rec-
                                                                      ommendations to FAA focus on
                                                                      (1)  developing  a  plan  to  im-
                                                                      prove  RSAs  at  11  airports  to
                                                                      the  fullest  extent  practical;
                                                                      (2) developing and implement-
                                                                      ing  a  program  to  removeNor


                                                                       Semiannual Report to Congress  •  7
 modify non–standard naviga-
 tion  aids  located  in  RSAs;
 (3) issuing detailed guidance
 to and conducting training for
 staff who identify, track, and
 report  the  status  of  RSAs;
 (4) implementing quality con-
 trol procedures to ensure the
 accuracy and integrity of RSA
 data; and (5) expanding the
 annual report to Congress to
 better reflect the true status of
 RSA improvement activities.


 The Joint Program
 Office’s Management                                 without documented budget procedures. As a
 of the Intelligent Transportation                   result, ITS financial reports were not consistently
                                                     reconciled in 2008, and nearly $20 million in
 Systems (ITS) Program Needs to be                   unneeded funds was left on old contracts and
 Improved                                            agreements. Furthermore, we found the JPO
 March 11, 2009                                      lacked uniform project management standards
                                                     and project benefit–cost analyses; such proce-
 This report represents the results of our audit     dures might have mitigated cost overruns and
 on RITA’s Intelligent Transportation Systems        delays experienced by several ITS initiatives.
 (ITS) Joint Program Office (JPO). We assessed       Finally, we found that the JPO needs to address
 whether the JPO is effectively managing and         conflicts of interest, such as allowing the Volpe
 overseeing the ITS program by (a) tracking proj-    Center to both oversee and administer the Safe
 ect results and outcomes, (b) managing the ITS      Trip–21 project. Our recommendations to JPO
 budget and overseeing contracts, and (c) pro-       focus on (1) strengthening the ITS assessment
 viding direction and cross–modal coordination.      program, (2) restructuring support contractor
 While ITS initiatives have achieved DOT–wide        services, (3) documenting budget procedures,
 support, we found weaknesses in how the JPO         (4) coordinating with FHWA to de–obligate nearly
 measures project results, executes budget and       $20 million in unneeded funds on old contracts
 contract procedures, and manages ITS research       and agreements, and (5) strengthening project
 projects. Specifically, the JPO has not ensured     management by requiring uniform procedures
 that its contractors’ assessments of ITS projects   and benefit–cost analyses. We also recommend
 have been useful, timely, or complete. In addi-     that RITA transfer oversight of the Safe Trip–21
 tion, contractors were producing costly, duplica-   project from Volpe to the JPO to avoid conflicts of
 tive work. We also found the JPO was operating      interest and to comply with DOT Order 2300.8.

8   •  Aviation and Special Programs
                                                      Audits and Investigations
                                                                 Aviation and Special Programs
FAA Actions Needed
To Achieve Mid–Term Next                              structure projects, airspace redesign projects,
Generation Air Transportation System                  and performance–based navigation initiatives
(NextGen) Goals                                       (i.e., Area Navigation and Required Navigation
                                                      Performance). In addition, FAA is focusing
March 18, 2009                                        considerable attention on NextGen’s mid–term
The Inspector General testified before the House      goals, targeted for 2018, but it has not reached
Subcommittee on Aviation regarding FAA actions        consensus with stakeholders on how best to
needed to achieve near– and mid–term goals for        move forward, and fundamental issues remain to
NextGen. The Inspector General stated that FAA        be addressed. To highlight transition issues and
has an important opportunity to strategically         establish requirements, FAA must complete its
position the system for a rebound in air travel       ongoing “gap analysis” of the current and vastly
demand. After more than 4 years of planning,          different NextGen systems and refine the Next-
FAA must take a number of actions to advance          Gen mid–term architecture. Finally, FAA needs
the billion–dollar, multi–faceted NextGen effort.     to take a number of business and management
First, FAA must sustain the existing National         actions to help shift from NextGen planning
Airspace  System.  This  includes  maintaining        to  mid–term  implementation.  These  include
ground–based  radars,  navigation  equipment,         (1) establishing priorities and Agency commit-
and  aging  facilities.  FAA  must  make  numer-      ments with stakeholders and reflecting them
ous critical decisions on existing systems over       in  budget  and  plans;  (2)  managing  NextGen
the next several years that will have significant     initiatives as portfolios and establishing clear
budgetary implications and materially affect the      lines of responsibility, authority, accountability;
pace of NextGen. It will also be important for        (3) acquiring the necessary skill mix for manag-
FAA to focus on near–term efforts that can en-        ing and executing NextGen; and (4) examining
hance the flow of air traffic even before NextGen     what can reasonably be implemented in given
is fully in place. These include new airport infra-   time increments.




                                                                       Semiannual Report to Congress  •  9
                                                      or consistently evaluated for severity.                     FAA
                                                      has initiated actions to correct some of these
  FAA’s Process for Reporting and                     weaknesses, but additional actions and follow–
                                                      up are  still  needed.  Specifically, FAA needs to
  Investigating Operational Errors                    improve its process for reporting and investi-
  March 24, 2009                                      gating losses of separation by (1) improving
                                                      inspectors’ procedures for investigating pilot
  This report represents the results of our review
                                                      deviations, (2) evaluating losses of separation
  of FAA’s process for reporting and investigating
                                                      caused by pilots and controllers consistently,
  operational errors. This review was requested
                                                      and (3) implementing a full–time separation
  by Chairman Oberstar of the House Commit-
                                                      conformance tool. FAA also needs to en-
  tee on Transportation and Infrastructure and
                                                      hance the ATO’s oversight role in ensuring that
  Chairman Costello of the House Subcommit-
                                                      losses of separation are reported accurately by
  tee on Aviation. Their request was prompted
                                                      (1)  implementing  planned  organiza-
  by our 2007 investigation at the Dallas Fort–
                                                      t i o n a l   c h a n g e s   i n   a   t i m e l y   m a n n e r,
  Worth (DFW) Terminal Radar Approach Control
                                                      (2) involving Flight Standards early in the event
  (TRACON) facility, which we conducted after
                                                      determination process, and (3) improving its
  whistleblowers  alleged that facility manage-
                                                      facility  oversight  during  Air  Traffic  facility
  ment was intentionally misclassifying opera-
                                                      audits. n
  tional errors. Chairmen Oberstar and Costello
  were concerned that the operational error re-
  porting problems found at the DFW TRACON
  may be occurring at other Air Traffic facilities.
  Accordingly, our audit objectives were to
  (1) determine whether FAA has adequate poli-
  cies and procedures to ensure accuracy and
  consistency in operational error reporting and
  (2) review the roles and responsibilities of the
  Air Traffic Organization (ATO) and FAA’s Aviation
  Safety line of business in reporting and inves-
  tigating operational errors. While the events
  that transpired at DFW TRACON were not
  occurring system–wide, we did identify control
  and oversight weaknesses in FAA’s process for
  reporting and investigating losses of separation
  caused by pilots and controllers. These weak-
  nesses were due in part to inadequate FAA
  guidance for investigating these events and
  insufficient staffing in the ATO Safety Office.
  Further, FAA’s current processes do not ensure
  that all losses of separation are accurately
  reported across terminal and en route facilities


10   •  Aviation and Special Programs
                                                     Audits and Investigations
                                                                Aviation and Special Programs
Investigations
Owner of Aircraft Company Ordered                    Israel Airline Enters Into a Plea
to Pay Fines and Restitution Totaling                Agreement for Violations of the
$613,000                                             Sherman Antitrust Act
                                                     February 4, 2009
December 3, 2008
                                                     On February 4, El Al Israel Airlines Ltd (El Al),
Robert A. Schlotzhauer, owner of Falcon He-
                                                     a corporation organized and existing under the
licopters, Inc. (FALCON) was sentenced on
                                                     laws of Israel, entered into a plea agreement
December 3 in U.S. District Court, Kansas City,
                                                     with the United States District Court, District
Missouri, in connection with a fraudulent helicop-
                                                     of Columbia for violations of the Sherman An-
ter repair and sales scheme. In March 2008, Mr.
                                                     titrust Act. The plea agreement states that from
Schlotzhauer pled guilty to Federal charges of
                                                     January 2003 until at least February 14, 2006,
wire fraud and money laundering. In March 2006,
                                                     employees from the company’s cargo division
Mr.  Schlotzhauer  and  his  company  FAL-
                                                     participated in a conspiracy with one or more
CON, Lee’s Summit, Missouri, were indicted
                                                     providers of air cargo services to suppress and
on  charges  involving
                                                                                  eliminate  competi-
a  fraudulent  helicopter
                                                                                  tion by fixing one or
repair and sales scheme
                                                                                  more  components
which involved falsification
                                                                                  of  the  cargo  rates
of  airworthiness  records
                                                                                  charged to custom-
and the use of unapproved
                                                                                  ers  for  certain  air
repair methods and avia-
                                                                                  cargo  services.  El
tion parts. Mr. Schlotzhauer
                                                                                  Al employees also
purchased helicopters that
                                                                                  engaged in discus-
were substantially dam-
                                                                                  sions and attended
aged in accidents, returned
                                                                                  meetings  with  rep-
two of them to service with
                                                                                  resentatives  of  one
fraudulent paperwork, and
                                                                                  or  more  providers
then offered these helicop-
                                                                                  of air cargo services
ters for sale in interstate commerce. He was also
                                                     where agreements were reached to fix one or
charged with bank fraud and money laundering;
                                                     more components of the cargo rates charged to
after receiving his customers’ payments, he
                                                     purchasers of certain air services flying into and
tried to hide the money by transferring it from
                                                     out of the United States. Pursuant to the Federal
one account to another. Mr. Schlotzhauer was
                                                     Rules of Criminal Procedure, the United States
sentenced to 12 months’ home confinement,
                                                     and the defendant agree to recommend jointly
24 months’ supervised release, and ordered
                                                     that the court impose a sentence requiring the
to pay a fine of $550,000 and restitutions of
                                                     defendant to pay a criminal fine of $15.7 million.
$63,854. Schlotzhauer has also surrendered his
                                                     This plea agreement is the result of a large-scale
FAA Certifications


                                                                      Semiannual Report to Congress  •  11
                                                         PJM aircraft in an effort to load extra fuel onto the
                                                         aircraft. According to the indictment, PJM flew
  investigation into price fixing and collusion in the   more than 25 commercial charter flights utilizing
  airline industry that is being coordinated by the      two separate aircraft with centers of gravity that
  U.S. Department of Justice Antitrust Division.         exceeded the aircrafts’ forward limits, lied about
  This investigation is being conducted jointly with     it in FAA-required documents, and operated in
  the FBI and the U.S. Postal Service OIG.               excess of 85 commercial flights without Part 135
                                                         certification. This investigation was conducted
                                                         with assistance of the FAA’s Eastern Region
  Charter Jet Company Officials                          Flight Standards Division. As in any criminal
  Arrested in Connection with a 2005                     case, suspects are presumed innocent unless
  Plane Crash                                            and until proven guilty. The charges filed merely
                                                         contain allegations of criminal conduct.
  February 4, 2009

  Platinum Jet Management, LLC; (PJM); its               Georgia Commercial Shipper
  co-founders, Michael Brassington, Paul Brass-
  ington, and Andre Budhan; and maintenance              Sentenced to Five Years’ Probation for
  director Brian McKenzie were arrested on Feb-          Hazardous Materials Violations
  ruary 4 by special agents of the OIG and FBI;          February 26, 2009
  in part for their alleged involvement in events
  related to the February 2, 2005 airplane crash at      Ngu David Tran and his company, Trans Design,
  Teterboro Airport in New Jersey which resulted         Inc., Forest Park, Georgia, were sentenced
  in numerous injuries. The NTSB investigation           on February 26 in U.S District Court, Atlanta,
  concluded that the aircraft’s center of gravity        Georgia, in connection with a scheme to illegally
  was incorrect, which contributed to the crash.         transport hazardous materials in air commerce.
  The arrest stemmed from a January 23, 2009,            The investigation revealed that Tran and Trans
  indictment that charged the individuals, along         Design, Inc. shipped chemicals via United Parcel
  with two others, Joseph Singh and Francis              Service and Federal Express on multiple occa-
  Vieira, with conspiracy, making false statements,      sions without declaring them as hazardous ma-
  and destruction of an aircraft. According to the       terials. Tran’s activities were discovered when
  indictment the individuals conspired to violate        a shipment leaked onboard an aircraft causing
  regulatory requirements, allowing the company          the entire aircraft to be unloaded and cleaned.
  to operate as an air charter operation without         These chemicals were seized by the FAA and
  holding the required FAA certificate pursuant          turned over to the OIG as evidence. Tran was
  to Federal Aviation Regulation Part 135, which         sentenced to serve five years probation, ordered
  provides operating and safety requirements for         to perform 100 hours of community service.
  on–demand commercial air operations.                   Trans Design, Inc. was sentenced to serve five
                                                         years probation, fined $119,000, assessed an
  The indictment also alleged that Michael Brass-        administrative penalty by the FAA in the amount
  ington, Francis Vieira and others falsified the        of $137,500. n
  weight and balance configurations for several


12   •  Aviation and Special Programs
                                                    Audits and Investigations




                                      Highway and Transit Programs
IN FOCUS: ENSURING ACCOUNTABILITY AND TRANSPARENCY

The American Recovery and                           for a number of existing DOT programs, ARRA
                                                    directs DOT to create several new programs and
Reinvestment Act of 2009
                                                    establishes tight time frames for distributing and
On February 17, 2009, the President signed into     expending funds and for reporting results.
law the American Recovery and Reinvestment
Act (ARRA), which designated over $48 billion       The vast majority of ARRA funding received by
to  the  Department  of  Transportation  (DOT).     DOT, goes to the Federal Highway Administra-
According to the Secretary of Transportation,       tion (FHWA), the Federal Railroad Administration
ARRA represents “the largest investment in          (FRA), and the Federal Transit Administration
America’s roads, bridges, transit lines, and rail   (FTA) for the construction and/or maintenance of
systems since the creation of the interstate        highway, road, bridge, transit, and rail projects.
highway system.” Key provisions of ARRA are         The remaining ARRA funds are distributed among
preserving and creating jobs, promoting eco-        the Office of the Secretary of Transportation
nomic recovery, and investing in transportation     (OST), the Federal Aviation Administration (FAA),
infrastructure that will provide long-term eco-     the Maritime Administration (MARAD), and OIG.
nomic benefits. In addition to providing funding

                                                                     Semiannual Report to Congress  •  13
  Table 1. Distribution of ARRA Funds Within
                      DOT

         DOT             Stimulus      Percent of
                          Funds
       Component        (millions)       Total
         FHWA             $27,500       57.15%
         FRA               $9,300       19.33%
         FTA               $8,400       17.46%
         OST               $1,500        3.12%
         FAA               $1,300        2.70%
         MARAD               $100        0.21%
         OIG                  $20        0.04%
         Total            $48,120      100.00%
      Source: ARRA.
  Table 1 shows the distribution of ARRA funding
  within DOT.

  Both the President and Congress have empha-
  sized the need for accountability, efficiency,
  and transparency in the allocation and expen-
  diture of ARRA funds. Accordingly, the Office
  of Management and Budget (OMB) has called
  on Federal agencies to (1) award and distribute
  funds in a prompt, fair, and reasonable manner;
                                                      have highlighted in past reports to the Secretary
  (2) ensure the recipients and uses of the funds
                                                      of Transportation and Congress. At the same
  are transparent to the public, and the resulting
                                                      time, ARRA presents an opportunity for DOT to
  benefits are reported clearly, accurately, and
                                                      make needed or neglected investments in the
  promptly; (3)  ensure funds are used for autho-
                                                      repair, rehabilitation, and modernization of our
  rized purposes and to mitigate instances of
                                                      aging transportation infrastructure; to fund proj-
  fraud, waste, and abuse; (4) avoid unnecessary
                                                      ects to reduce congestion; and to improve the
  project delays and cost overruns; and (5) achieve
                                                      safety of our Nation’s transportation system.
  specific program outcomes and improve results
  on economic indicators.
                                                      Our March 31, 2009 report, “American Recovery
                                                      and Reinvestment Act of 2009: Oversight Chal-
  Identifying Immediate Oversight                     lenges Facing the Department of Transporta-
  Challenges Facing the DOT                           tion,” identified the following three challenges
                                                      and 10 areas where DOT must exhibit sustained
  The significant increase in funding for transpor-   and effective actions and oversight.
  tation projects associated with ARRA adds new
  challenges on top of the longstanding ones we

14   •  Highway and Transit Programs
                                           Audits and Investigations
                                                      Highway and Transit Programs



              Challenges                                    Focus Areas
Ensuring that DOT’s grantees properly      1.	 Acquire sufficient personnel with relevant
spend ARRA funds                               expertise to oversee grantees.
                                           2.	 Adhere to existing Federal requirements for
                                               programs funded under ARRA.
                                           3.	 Evaluate the credibility and completeness
                                               of cost and schedule estimates.
                                           4.	 Oversee grantees’ contracting manage-
                                               ment activities and ensure selection of
                                               appropriate contract types.
                                           5.	 Address internal control weaknesses and
                                               identify unused funds for use elsewhere.

Implementing new accountability require-   6.	 Implement new ARRA tracking and report-
ments and programs mandated by ARRA in         ing requirements that are designed to pro-
an effective manner                            mote accountability and transparency.
                                           7.	 Develop comprehensive plans and sound
                                               criteria for the new discretionary grant and
                                               passenger rail programs within statutory
                                               deadlines.
                                           8.	 Develop appropriate oversight strategies
                                               for the new discretionary grant and pas-
                                               senger rail programs.

Combating fraud, waste, and abuse          9.	 Enhance understanding among DOT staff,
                                               grantees, and their contractors on how to
                                               recognize, prevent, and report potential
                                               fraud to the appropriate authorities.
                                           10.	Take timely and effective action to suspend
                                               and/or debar individuals or firms that have
                                               defrauded the Department so they do not
                                               receive Federal contracts in the future.



                                                            Semiannual Report to Congress  •  15
                                                       Hiring Additional High Caliber Staff

  To ensure that the potential risks discussed         We are working aggressively to hire new audi-
  in our report were sufficiently considered, we       tors and investigators and have already issued
  recommended that the Secretary of Transporta-        numerous vacancy announcements. Further, on
  tion develop an oversight implementation plan        March 31, 2009, the Office of Personnel Man-
  that outlines the key actions DOT already has        agement gave us authority to utilize “rehired an-
  underway or will take to address the above fo-       nuitants” to supplement our staff. Being able to
  cus areas. In addition, we recommended that          expeditiously hire high-caliber staff is critical so
  the plan prioritize the greatest risks for DOT and   we can deploy them to track the influx of ARRA
  address open OIG recommendations from prior          funds poured into the economy and deal with
  audit reports that have relevance to the imple-      the increased workload of “hotline” complaints
  mentation of ARRA. DOT concurred with our            that are likely to occur as ARRA projects begin
  recommendations and agreed to provide us with        construction. By the next semiannual reporting
  a document outlining actions taken and planned       period, we plan to have a talented new group of
  to address our focus areas by May 1, 2009.           auditors and investigators on board to supple-
                                                       ment our existing staff.
  Fulfilling Our ARRA Oversight
                                                       Developing and Implementing an Oversight Plan
  Responsibilities
  The ARRA designated $20 million to DOT OIG           In anticipation of ARRA’s passage, we initiated
  through 2013 to conduct audits and investiga-        a three-phase approach to conducting related
  tions of DOT projects and activities funded by       work. We completed Phase 1 in March with the
  ARRA. We appreciate the additional funding           issuance of our report on key oversight chal-
  which will help to ensure we have the staff,         lenges facing DOT. We also identified several
  travel budget, information technology, and other     audits that we started prior to ARRA’s passage
  resources needed to help achieve new, ARRA-          but have a direct connection to the programs
  related goals. The Inspector General, along with     funded under ARRA and related requirements.
  nine other Inspectors General, serves on the         We are planning to fast track the most time-
  newly established Recovery and Transparency          sensitive results of our work on these audits to
  Board (“The Board”). The Board was established       make sure we are providing the Department,
  to coordinate and conduct oversight of ARRA          Congress, and taxpayers with timely and rel-
  funds to prevent fraud, waste and abuse. The         evant information.
  Inspector General also co-chairs the Council on
  Inspectors General on Integrity and Efficiency       Phase 2 of our strategy is a short term initiative
  (CIGIE) Economic Recovery Working Group. As          and involves a systematic scan, or structured
  discussed below, our office has already taken        survey, of the DOT agencies that received
  a variety of actions to best position itself to      funding in ARRA, based on the 10 focus areas
  meet the increased workload under ARRA and           identified in our March report. These scans will
  we remain committed to protecting the Federal        examine vulnerabilities in program management
  investment over the long term.                       and planning that could impede DOT’s ability


16   •  Highway and Transit Programs
                                                     Audits and Investigations
                                                                 Highway and Transit Programs

to provide effective oversight to
ARRA-funded projects and meet new statu-             waste, and abuse involving common fraud
tory and OMB requirements. We plan to begin          schemes. Further, our special agents have also
reporting the results of Phase 2 this summer         been and will continue providing fraud preven-
through a series of ARRA advisories to the           tion and awareness briefing throughout the
Department. Phase 3 is a long term initiative        United States to DOT highway and transit staff
in which we will drill down on high-risk areas       and their grantees at the state and local levels
that emerge as a result of our agency scans.         and coordinating with their law enforcement
We will use this information to develop a long-      counterparts regarding our economic recovery
term plan that lays out OIG’s ARRA audits and        investigative efforts.
investigative initiatives.
                                                     We recognize that risks of fraud will increase as
Expanding our Proactive Investigative Efforts        the recovery funds are poured into the economy
                                                     in the coming months and construction begins.
Since ARRA was enacted we have been work-            We plan to continue our investigative outreach
ing constructively with DOT officials to assist      efforts, investigate allegations of fraud, vigilantly
them in their counter-fraud outreach efforts.        present cases to the Department of Justice for
For example, the Secretary of Transportation         prosecution and ensure that DOT and states
and the Inspector General hosted a webcast to        take appropriate suspension and debarment
DOT staff that focused on how to prevent fraud,      actions. n




Audits                                               compliance with United States Federal Motor
                                                     Carrier Safety Standards while operating in the
Testimony to NTSB on the                             United States.

January 2, 2008,Victoria,Texas,
Motor Coach Accident                                 National Bridge Inspection
October 7, 2008                                      Program: Assessment of FHWA’s
                                                     Implementation of Data–Driven,
The Assistant Inspector General for Highway and
Transit Audits testified at the National Transpor-
                                                     Risk–Based Oversight
tation Safety Board’s hearing covering a motor       January 12, 2009
coach crash that occurred on January 2, 2008,
                                                     This report represents the results of our audit on
in Victoria, Texas. At the request of the NTSB,
                                                     the Federal Highway Administration’s (FHWA)
the testimony covered prior Office of Inspector
                                                     implementation  of  data–driven,  risk–based
General audit report findings and recommen-
                                                     oversight of the National Bridge Inspection Pro-
dations  pertaining  to  Mexico–domiciled  bus
                                                     gram. Our objectives were to evaluate FHWA’s
inspections performed at United States–Mexico
                                                     (1) implementation of a data–driven, risk–based
border crossings and Mexico–domiciled vehicle

                                                                       Semiannual Report to Congress  •  17
                                                     tional Bridge Inspection Standards (NBIS) com-
                                                     pliance reviews and develop a comprehensive
  oversight to target bridge safety risks most in    plan to routinely conduct systematic, data–driven
  need of attention, particularly those related to   analysis to identify nationwide bridge safety risks,
  load ratings and postings and (2) promotion of     prioritize them, and target those higher priority
  state use of bridge management systems. Our        risks for remediation in coordination with states.
  review found that FHWA made limited progress       In implementing the plan, FHWA should (a) direct
  implementing data–driven, risk–based bridge        the Office of Bridge Technology to routinely and
  oversight. Although FHWA’s annual review           systematically identify and prioritize nationwide
  of state bridge inspection programs assured        bridge safety risks and (b) direct the Division
  compliance with Federal standards, it did not      Offices to work with states to remediate higher
  incorporate routinely a systematic data–driven     priority nationwide bridge safety risks. We also
  approach to identifying, prioritizing, and re-     recommended that FHWA develop a requirement
  mediating nationwide bridge safety risks in        for states to correct promptly data inaccuracies
  coordination with states. Additionally, we found   found by FHWA’s NBI data validation program
  that FHWA could strengthen its role in expand-     and increase FHWA’s use of element–level data
  ing states’ use of bridge management systems,      by (a) coordinating with American Association
  which are computerized systems that prioritize     of State Highway and Transportation Officials
  replacement and repair projects and help ensure    (AASHTO) to update the standards for element–
  bridge safety. We recommended that the FHWA        level data, (b) incorporating AASHTO’s updated
  Administrator develop and implement minimum        standards into the NBIS through the rulemaking
  requirements for data–driven, risk–based bridge    process, and (c) developing and implement-
  oversight during bridge engineers’ annual Na-      ing a plan to collect element–level data after
                                                                               A A S H T O ’s   u p d a t e d
                                                                               standards  have  been
                                                                               incorporated  into  the
                                                                               NBIS. We further recom-
                                                                               mended that FHWA initi-
                                                                               ate a program to collect
                                                                               data regularly on states’
                                                                               use of bridge manage-
                                                                               ment systems, evaluate
                                                                               the data to identify those
                                                                               states most in need of
                                                                               assistance  in  imple-
                                                                               menting effective bridge
                                                                               management  systems,
                                                                               and target those states
                                                                               for technical assistance
                                                                               and training resources.




18   •  Highway and Transit Programs
                                                       Audits and Investigations
                                                                   Highway and Transit Programs
Status Report on
NAFTA Cross–Border Trucking                            Mexico voluntarily withdrew from the project to
Demonstration Project                                  avoid business disruptions, and its prior safety
February 6, 2009                                       history showed that out–of–service rates were
                                                       lower that those of United States carriers. We
This status report represents the results of our       recommended that FMCSA demonstrate that
audit on the NAFTA Cross–Border Trucking
Demonstration Project, in keeping with leg-
islation enacted in May 2007. By law, we are
required to issue a final report 60 days after the
conclusion of the project, which was initiated on
September 6, 2007. This report describes the
status of the project at the conclusion of the first
year. It also responds to a question for the record
from our March 2008 testimony before the Senate
on the withdrawal of Trinity Industries de Mexico
from the project. Our report found that after
the first year, the Federal Motor Carrier Safety
Administration (FMCSA) has not demonstrated
that the number of Mexican carriers participat-
ing in the demonstration project is adequate to
yield statistically valid results, and that in some
respects, the participants are not representative
of all applicants for long–haul authority in terms
of some business characteristics and out–of–
service rates. The panel that the Department           the project meets congressional requirements
established to provide an independent evaluation       to yield statistically valid results by (a) determin-
of the demonstration project completed its report      ing the minimum number of Mexican carriers
on the first year of the demonstration project but     that must participate, (b) developing a plan to
will not continue in that capacity during the re-      attain a sufficient number of carriers if they have
mainder of the project. FMCSA will continue to         not met this threshold, and (c) providing this
monitor the participants and conduct an internal       information to the OIG and appropriate congres-
evaluation of any effects of the project on motor      sional committees. We also recommended that
carrier safety in the United States. While FMCSA       FMCSA develop and implement a new quality
implemented Federal and state monitoring and           control plan to provide assurance that every
enforcement mechanisms and checks are occur-           Mexican truck is checked upon every entry to
ring at the border, a key quality control measure      the United States, and that FMCSA conduct a
designed to provide assurance that all trucks          cost-benefit analysis to determine if renewing
are checked is not adequate because it relies          Global Positioning System services will provide
on incomplete data. Finally, Trinity Industries de     benefits that outweigh the costs.


                                                                         Semiannual Report to Congress  •  19
                                                        pertise to oversee grantees; (2) adhere to existing
                                                        Federal requirements for programs funded under
  American Recovery and Reinvestment                    ARRA; (3) evaluate the credibility and complete-
                                                        ness of cost and schedule estimates; (4) oversee
  Act of 2009: Oversight Challenges                     grantees’ contracting management activities
  Facing the Department of                              and ensure selection of appropriate contract
  Transportation                                        types; (5) address internal control weaknesses
                                                        and identify unused funds for use on other eli-
  March 31, 2009
                                                        gible projects; (6) implement new ARRA tracking
  This report represents the results of our audit on    and reporting requirements that are designed
  the oversight challenges facing the Department        to promote accountability and transparency;
  of Transportation with the implementation of the      (7) develop comprehensive plans and sound
  American Recovery and                                                           criteria   for  the   new
  Reinvestment Act (ARRA)                                                         discretionary  grant  and
  of  2009.  The  objective                                                       passenger rail programs
  of this audit was to high-                                                      created  by  ARRA;
  light  key  DOT  oversight                                                      (8)  develop  appropri-
  challenges—based  on                                                            ate  oversight  strate-
  prior  OIG  reports  and                                                        gies  for  the  new  pro-
  other agencies’ relevant                                                        grams  created by ARRA
  audit  work—and  iden-                                                          by  drawing  lessons
  tify actions DOT should                                                         from  DOT’s  Operat -
  take now in support of                                                          ing  Administrations;
  ARRA requirements.  Our                                                         (9) enhance understand-
  report  condensed  the                                                          ing  among  DOT  staff,
  challenges into 10 focus                                                        grantees,  and  their
  areas where DOT must                                                            contractors  on  how  to
  exhibit  sustained  and                                                         recognize,  prevent  and
  effective  actions  related                                                     report  potential  fraud;
  to providing oversight to                                                       and (10) take timely and
  grantees receiving ARRA funding; implementing         effective action to suspend and/or debar indi-
  new requirements and programs mandated by             viduals or firms that have defrauded the Depart-
  ARRA; and preventing fraud, waste, and abuse.         ment so they do not receive Federal contracts
  To ensure sufficient consideration of the potential   in the future. In addition, we recommended that
  risks discussed in this report, we recommended        the plan prioritize the greatest risks for DOT and
  that the Secretary of Transportation, through the     address open OIG recommendations from prior
  DOT-wide Transportation Investment Generat-           audit reports that have relevance to the imple-
  ing Economic Recovery (TIGER) team, develop           mentation of ARRA. DOT concurred with our
  an oversight implementation plan that outlines        recommendation and agreed to provide us with
  the key actions DOT already has underway or           a document outlining actions taken and planned
  will take to address the following 10 focus areas:    to address our 10 focus areas within 30 days of
  (1) acquire sufficient personnel with relevant ex-    the date of our report. n

20   •  Highway and Transit Programs
                                                        Audits and Investigations
                                                                    Highway and Transit Programs
Investigations
Brother of Former Judge/Executive                       Two Massachusetts Company
Sentenced to 10 Months’                                 Officials Sentenced for Their Roles in
Imprisonment                                            Falsifying Change Orders on Central
October 15, 2008                                        Artery/Tunnel (CA/T) Project
                                                        October 17, 2008
Henry Matt Smith, owner and manager of BKW
Wood Products, Total Timber, and Total Freight,         Kenneth Hartley and Ryan McCourt of McCourt
was sentenced on October 15 in U.S. District            Construction (MC) were sentenced on October
Court, London, Kentucky, for embezzlement               17 in U.S District Court, Boston, Massachusetts
and aiding and abetting his brother, Raymond            for their roles in a conspiracy to commit high-
Smith, a former Knox County Judge/Executive,            way project fraud. Kenneth Hartley and Ryan
in the misapplication of county funds. Between          McCourt misclassified apprentice level trades
May 2003 and May 2006, Raymond Smith held               as journeymen trades, with higher hourly pay
the position of Judge/Executive, a position that        rates, on daily reports used to compile costs for
allows fiscal control and approval of county ex-        time and materials change orders. Mr. Hartley,
penses. During this time, he devised a scheme           a former manager of MC, was sentenced to
for his family businesses to fraudulently obtain        6 months’ imprisonment and 3 years’ supervised
government money through county contracts by            release. Mr. McCourt, who succeeded Mr. Hart-
awarding the contracts to straw companies that          ley, was sentenced to 2 years’ supervised proba-
were controlled by himself and his family mem-          tion and $1,000 fine. MC formed a joint venture
bers, rather than the entities listed on the original   with Obayashi Construction in 1998 and was
bids. Henry Matt Smith assisted his brother by          awarded the $163 million CA/T Project’s “tunnel
providing personnel from his business to perform        finishes” contract. As a result of change orders,
some of the work secured by false bids, helping         the contract value grew to over $230 million. This
to create false documents, and cashing checks           investigation was conducted jointly with the FBI
generated by the fraud scheme. Henry Smith              and DOL/OIG.
was sentenced to 10 months’ imprisonment and
3 years’ supervised release. In August 2008,
                                                        Arkansas Freight Broker Sentenced to
Raymond Smith was sentenced to 30 months’
imprisonment, and 3 years’ supervised release,          51 Months in Prison and Ordered to
and ordered to pay $110,000 in restitution for          Pay Over $165,000 in Restitution
mail fraud. Both brothers are jointly liable for the    October 20, 2008
restitution. This investigation was conducted
jointly with the FBI and with the assistance of         John D. Russell, a commercial freight broker/
the Kentucky State Auditor’s Office.                    freight forwarder, was sentenced on October
                                                        20 in U.S. District Court, Fort Smith, Arkansas,
                                                        in connection with a scheme to defraud inter-
                                                        state carriers entitled to freight fees. Mr. Russell


                                                                          Semiannual Report to Congress  •  21
                                                        ets. The civil case is the culmination of an OIG
                                                        investigation that resulted in P.A. Landers, Inc.;
  was sentenced to 51 months’ imprisonment,             Landers; and Keelan being found guilty in a May
  3  years’  supervised  release,  and  ordered  to     2007 jury trial in U.S District Court in Boston,
  pay  $165,712  to  approximately  15  victims.        Massachusetts. In August 2007, the com-
  Mr. Russell operated transportation brokering         pany was sentenced to 4 years’ probation and a
  companies that collected freight fees from ship-      $3 million fine, while Landers received 42 months’
  pers. He would broker the loads for transportation    imprisonment and Keelan received 30 months’
  to other carriers, collect the freight fees, and in   imprisonment. The case was prosecuted by the
  many instances failed to pay the companies that       United States Attorney’s Office in Boston.
  transported the freight. Mr. Russell pled guilty to
  the wire fraud charge in February. This investiga-
  tion was conducted jointly with the FBI.
                                                        Commonwealth of Massachusetts
                                                        Settles Ceiling Collapse for
  Massachusetts Road Construction                       $26 million with Big Dig Contractor
  Company Pays $900,000 to Settle                       and Supplier of Epoxy
                                                        November 21, 2008
  Civil Case
  November 2, 2008                                      Modern Continental Construction Co. (Modern)
                                                        and Modern’s sureties entered into a compre-
  P.A.  Landers,  Inc.,  a  Massachusetts  road         hensive settlement agreement with the Mas-
  construction company, agreed to pay the U.S.          sachusetts Attorney General’s Office (MAGO)
  Government $900,000 to settle civil false claims      on November 21 that will compensate the
  in connection with a conspiracy to defraud the        Commonwealth of Massachusetts $21 million
  Commonwealth of Massachusetts by generating           for damages resulting from the I–90 connector
  false and inflated weight tickets for truckloads      tunnel ceiling collapse. Under the terms of the
  of asphalt on federally-funded paving contracts       settlement agreement, Modern will not perform
  from 1995 to 2003. The civil complaint alleged        any further work on the CA/T Project, known as
  that company president Preston Landers, vice          the Big Dig. If approved by the U.S. Bankruptcy
  president Gregory Keelan, and other company           Court, the settlement will also resolve tens of
  managers used an override device in the asphalt       millions of dollars in claims that Modern and the
  plant’s computer to inflate asphalt weight tick-      Massachusetts Turnpike Authority (MTA) have




22   •  Highway and Transit Programs
                                                       Audits and Investigations
                                                                  Highway and Transit Programs
against each other arising out of
Modern’s 14 remaining Big Dig construction
contracts and will close out those contracts. In       AY Transport’s business came from NMN, and
addition, approximately $2 billion in performance      in December 2007, 14 defendants, including the
bonds on the Modern contracts will be extended         owners of AY Transport and NMN, were indicted
for 6 years to pay for costs that the MTA might        for conspiracy, wire fraud, extortion, and mon-
incur as a result of latent defects in Modern’s        etary laundering. Sandomir was sentenced to
work. In addition, the MAGO also entered into a        3  years’  probation,  6  months’  home  confine-
settlement agreement with Newman Associates,           ment, and ordered to pay $30,000 in restitution
Inc. (Newman), and their related companies, to         and to not contact any of the defendants.
resolve a further claim relative to the tunnel ceil-
ing collapse. Newman was the distributor of the        New York Construction Company
epoxy that was sold to Modern and failed in the
ceiling system. Under the agreement, Newman
                                                       President and Associate Pled Guilty
agreed to pay $5 million in damages resulting          and Agreed to Pay $1.2 Million in
from the ceiling collapse. These funds will be         Forfeitures and Fines
used to reimburse Travelers Insurance, one of
                                                       December 5, 2008
Modern’s sureties
                                                       Andrew Catapano, the president of AFC Enter-
Florida Moving Brokerage Sales                         prises, Inc., and John Mikuszewski, a consultant
                                                       to Rosewood Contracting Corporation, pled
Representative Sentenced to                            guilty on December 5 in U.S. District Court,
3 Years’ Probation and Ordered to                      Brooklyn, New York, to charges of conspiracy
Pay $30,000 in Restitution in a                        to defraud the United States. Mr. Catapano and
                                                       Mr. Mikuszewski admitted they conspired to
Household Goods Extortion Scheme                       bribe union officials and utility company repre-
November 26, 2008                                      sentatives on numerous roadway reconstruction
                                                       projects awarded by DOT grantees throughout
Matthew D. Sandomir, former sales representa-          the New York metropolitan area from 1998 to
tive for National Moving Network (NMN), Miami,         2001. On April 7, 2006, Mr. Catapano and Mr.
Florida, was sentenced on November 26 in U.S.          Mikuszewski were charged with conspiracy to
District Court, San Jose, California. The sen-         defraud the United States, making unlawful labor
tencing resulted from a superseding indictment         payments, money laundering, and mail fraud. A
and plea agreement in which Mr. Sandomir pled          criminal trial began on November 17, 2008, but
guilty to theft from an interstate shipment for        midway through the trial, the defendants agreed
his role in the fraudulent shipment of household       to plead guilty to one count of conspiracy, pay
goods. NMN lured customers into doing busi-            forfeiture of $1.2 million, and a fine of $120,000.
ness with them by offering them extremely low          Mr. Catapano and Mr. Mikuszewski are currently
moving estimates and after taking possession of        under suspension by FHWA and have been
customers’ property, increased the price. NYM          referred for debarment as a result of this convic-
partnered with AY Transport, a moving company          tion.
based in San Jose, CA. Almost 80 percent of

                                                                        Semiannual Report to Congress  •  23
                                                     Big Dig Epoxy Supplier Agrees to Pay
                                                     $16 Million to Resolve State Criminal
  Two Former New York City DOT
                                                     and Civil Cases
  Officials Sentenced to Imprisonment                December 17, 2009
  for Bribery Scheme on a DOT-Funded
                                                     The Commonwealth of Massachusetts Attorney
  Project
                                                     General’s Office (MAGO) reached an agreement
  December 5, 2008                                   with Powers Fasteners, Inc. (PFI), Brewster,
                                                     New York resolving state criminal manslaughter
  Balram “Balu” Chandiramani, formerly New
                                                     and pending civil claims in connection with the
  York City (NYC) DOT’s Director of Movable
                                                     I–90 Connector Tunnel Ceiling Collapse which
  Bridges, was sentenced on December 5 in U.S.
                                                     occurred on July 10, 2006. The investigation
  District Court, Brooklyn, New York, to serve
                                                     determined that the cause of the ceiling collapse
  1  year  and  1  day  imprisonment,  pay  a
                                                     was the use of PFI’s Fast Set epoxy product to
  $12,500 fine and $4,500 in restitution for his
                                                     secure the bolts anchoring the bracket system
  role in a bribery scheme on a DOT-funded
                                                     for  the  ceiling  panels.  Based  on  PFI’s  own
  project. Mr. Chandiramani, and co–defendant,
                                                     internal  testing,  the  epoxy  was  determined
  Uday Shah, a NYC DOT assistant civil engineer,
                                                     unsuitable for sustained loads and, over time,
  were charged with participating in a scheme in
                                                     its use would allow the anchor bolts to “creep”
  which they agreed to accept $400,000 from an
                                                     and pull out of the ceiling. This information
  executive of a general contracting corporation
                                                     was never communicated by PFI in any of its
  in exchange for influencing the settlement of
                                                     marketing material. The Commonwealth of Mas-
  a multi-million dollar claim against the City of
                                                     sachusetts sued PFI for negligence and breach
  New York, in connection with reconstruction
                                                     of contract in November 2006 and a state grand
  of the city’s Third Avenue Bridge, a federally-
                                                     jury indicted the company for manslaughter in
  funded project. On January 23, 2009, Mr. Shah
                                                     August 2007. The MAGO and PFI agreed to
  was sentenced in U.S. District Court, Brook-
                                                     enter into a Deferred Prosecution Agreement
  lyn, New York, to serve 3 years’ imprisonment,
                                                     and a Corporate Compliance Agreement (CCA)
  pay a $10,000 fine and $17,000 in restitution,
                                                     to resolve the indictment. PFI agreed to pay a
  and also serve 3 years’ of supervised release.
                                                     total of $16 million to the Commonwealth in civil
  This investigation was conducted jointly with
                                                     damages to resolve the outstanding civil lawsuit.
  the DOL/OIG; the Port Authority of New York
                                                     The CCA also required PFI to stop selling the
  and New Jersey OIG; and the New York City
                                                     Fast Set epoxy and ordered PFI to recall all of
  Department of Investigation.
                                                     its Fast Set epoxy products, to publish warnings
                                                     about the performance problems of the product,
                                                     and to develop a MAGO-approved independent
                                                     monitoring  system  to  conduct  annual  CCA
                                                     compliance  reviews.  This  investigation  was
                                                     conducted jointly with the MAGO, the U.S. At-
                                                     torney’s Office, the FBI, and the NTSB.



24   •  Highway and Transit Programs
                                                    Audits and Investigations
                                                                Highway and Transit Programs
New Mexico Department
of Transportation Agrees to                         Pennsylvania DBE Subcontractor Pled
Reimburse Approximately                             Guilty to Tax Evasion Related to
$2.8 Million for Ineligible Costs                   $121 Million DBE Fraud Scheme
Charged to the FHWA                                 January 9, 2009
December 17, 2008
                                                    Romeo P. Cruz, owner and operator of Marikina
The New Mexico Division office of the FHWA          Construction Corporation (Marikina), pled guilty
issued a letter of concurrence on December 17       on January 9 in U.S. District Court, Harrisburg,
with an audit that recommended repayment of         Pennsylvania to one count of tax evasion in con-
$2,874,503.45 to FHWA by the New Mexico             nection with the largest reported DBE fraud in
Department  of  Transportation  (NMDOT).  The       DOT history. Mr. Cruz previously pled guilty to
audit was conducted in conjunction with a joint     criminal fraud charges related to a DBE pass-
investigation between OIG and the NMDOT Of-         through scheme that involved approximately
fice of Inspector General. The audit reviewed       340 federally-funded highway DBE subcontracts
expenditures  made  by  NMDOT’s  Planning           valued at $121 million. Mr. Cruz admitted that
Division  of  the  Programs  and  Infrastructure    he under-reported his 2005 income-receiving
Research Bureau during fiscal years 2001-2005.      illicit proceeds from his participation in the fraud
The audit analyzed administrative costs, con-       scheme-and fraudulently disguised numerous
tracts, and local Technical Assistance Program      payments made to himself as legitimate busi-
expenditures. It identified hundreds of instances   ness expenses on the books and records of
where the Research Bureau charged costs to          Marikina. Previously, Dennis F. Cambell, a vice
FHWA that were determined to be ineligible for      president of Schuylkill Products Incorporated
Federal participation. Examples of such costs       (SPI), and Timothy G. Hubler, a vice president
include salary expenses for employees working       of CDS Engineers (CDS), pled guilty to criminal
on homeland security projects, unsupported          fraud charges. Both Cambell and Hubler admit-
contract expenditures, and travel expenses for      ted that they fraudulently used Marikina as a
employees working on a security task force.         pass-through DBE to obtain FHWA-regulated
                                                    contracts. On December 2, 2008, the FHWA
                                                    suspended SPI, CDS, and Marikina from bid-
                                                    ding on any projects using Federal funds. On
                                                    December 9, 2008, a Pennsylvania DOT hearing
                                                    officer issued a report recommending that SPI,
                                                    CDS, and its owners be permanently prohibited
                                                    from bidding on Pennsylvania highway projects.
                                                    This investigation was conducted jointly with the
                                                    FBI, the U.S. DOL/OIG, and the Internal Revenue
                                                    Service–Criminal Investigation Division.




                                                                      Semiannual Report to Congress  •  25
                                                       13–Year Fugitive Pled Guilty in
                                                       Connection with a $138 Million Fuel
  President of New York Construction
                                                       Tax Scheme
  Company Sentenced in a                               February 27, 2009
  $11.4 Million DBE Fraud Scheme
  February 13, 2009                                    Aaron Misulovin, who had returned to the United
                                                       States after nearly 13 years as a fugitive, pled
  Charles Doherty, president of United States          guilty on February 27 in U.S. District Court, Cam-
  Rebar Inc., (U.S. Rebar) was sentenced on            den, New Jersey to charges related to a motor
  February 13 in U.S. District Court, Central Islip,   fuel excise tax scheme. The charges included
  New York on charges related to a fraud scheme        one count of conspiracy, three counts of wire
  affecting $11.4 million in DBE subcontracts on       fraud, three counts of money laundering, and
  various public works construction projects in        three counts of tax evasion. Mr. Misulovin, along
  the New York metropolitan area that received         with 24 other defendants, were indicted in 1995
  DOT  grant  funds.  In  September  2005,             on charges related to evasion of approximately
  Mr. Doherty pled guilty to money laundering          $138 million in Federal and New Jersey motor
  conspiracy charges, and admitted that between        fuel excise taxes. Federal motor fuel excise taxes
  January 1998 and July 2002, U.S. Rebar, a            provide revenue for the Highway Trust Fund.
  non-DBE firm posing as various DBE firms,
  fraudulently obtained five DBE subcontracts          Mr. Misulovin operated Kings Motor Oils (Kings),
  valued at approximately $11.4 million to in-         a wholesale fuel distributorship. According to
  stall reinforcing bar (rebar). The investigation     the indictment, Kings purchased hundreds of
  revealed that Mr. Doherty conspired with the         millions of gallons of tax-free home heating oil,
  owners of the “front” DBEs and representa-           but through an elaborate scheme, the fuel was
  tives  of  several  general  contractors  in  a      resold by a wholesaler as diesel fuel for highway
  scheme where Mr. Doherty’s employees, pay-           use, with Federal and state taxes being charged
  roll, and expenses were falsely recorded in the      and collected from unknowing customers. In-
  books, records, and tax returns of the DBEs          stead of remitting payment to the IRS and the
  to generate the appearance that the DBEs             state, the taxes were distributed among Mr. Mis-
  were performing the subcontracts, when in            ulovin and other conspirators. Mr. Misulovin and
  fact the DBEs performed no legitimate busi-          the other tax evaders insulated themselves by
  ness purpose. Mr. Doherty also admitted to           creating “shell companies” and made it appear
  fraudulently cashing checks to generate cash,        as though these sham entities bought and sold
  which was then used to pay his employees.            the fuel. In reality, these companies never took
  Mr. Doherty was sentenced to 3 years’ proba-         title or possession of the fuel and Mr. Misulovin
  tion and fined $15,000; also, as a part of the       created false invoices and other documents to
  plea agreement, he agreed to forfeit $500,000        disguise the transactions between wholesale
  to the Government. The FTA has debarred both         fuel distributorship and fuel wholesaler. This
  Mr. Doherty and U.S. Rebar. This investigation       investigation was conducted jointly with the
  was conducted jointly with members of the            Internal Revenue Service–Criminal Investigation
  Long Island Federal Construction Fraud Task          Division, the FBI, and the New Jersey Division of
  Force.                                               Taxation.
26   •  Highway and Transit Programs
                                                     Audits and Investigations
                                                                Highway and Transit Programs


                                                     violations concerned two projects to improve
                                                     Lake Wheeler Road in Wake County, NC. This
                                                     investigation resulted in Mr. Grants’ resignation
                                                     and Mr. Scarborough’s demotion and reassign-
                                                     ment to a non-supervisory role. OIG agents pur-
                                                     sued the administrative recovery on this matter.
                                                     This investigation was conducted jointly with the
                                                     FBI, with significant assistance from the FHWA
                                                     North Carolina Division.


                                                     New York Attorney Pled to Fraud and
                                                     Obstruction Charges for Participating
                                                     in a Prevailing Wage Benefits Scheme
                                                     March 20, 2009

                                                     After 3 days of trial in U.S. District Court,
                                                     Brooklyn, New York, Steven Coren, a New York
                                                     attorney, pled guilty on March 20 to a sixteen-
FHWA Recovers $1.3 Million in
                                                     count indictment charging him with conspiring
Ineligible Federal-Aid Expenditures                  to defraud government agencies in connection
from the North Carolina Department                   with his clients’ construction contracts with
                                                     those agencies, conspiring to launder the funds
of Transportation                                    wrongfully obtained from those agencies, and
March 11, 2009                                       obstructing the Federal grand jury investiga-
                                                     tion by directing one of his clients to destroy
As a result of our investigation, the FHWA North
                                                     documents related to the scheme. From 2000
Carolina Division, Raleigh, North Carolina recov-
                                                     through 2006, Mr. Coren and several of his
ered $1.3 million in ineligible Federal-aid expen-
                                                     client-contractors defrauded government agen-
ditures from the North Carolina Department of
                                                     cies by falsely representing that the contractors’
Transportation (NCDOT), Right of Way Division.
                                                     workers were being paid the prevailing wage as
This recovery, which was reported by FHWA on
                                                     required by the Federal Davis-Bacon Act and
March 11, followed OIG’s investigation of two
                                                     New York state labor law. Davis-Bacon requires
NCDOT employees, Wilson Grant and Leonard
                                                     that contractors on federally-funded government
Scarborough. Our investigation revealed that
                                                     contracts pay their workers the prevailing wage
they violated NCDOT and FHWA policies and
                                                     rate, as determined by the Secretary of Labor,
procedures concerning the approval of cost-to-
                                                     which consists of a basic hourly rate and fringe
cure claims, the solicitation of bid appraisals,
                                                     benefits.
the awarding of contracts, and authorization of
payments for non-compensable work. These

                                                                      Semiannual Report to Congress  •  27
                                                     Larchmont Station project, which received fund-
                                                     ing from FTA grants. This investigation was con-
  Mr. Coren executed the scheme by creating the      ducted jointly with the Internal Revenue Service
  Contractors Benefit Trust (CBT), a multi-employ-   and Department of Labor OIG.
  er entity for which he acted as trustee. He then
  instructed the contractors to deposit the fringe
  benefit portion of the prevailing wage into the
                                                     Big Dig Designer and Epoxy
  CBT, making it appear that they had complied       Manufacture Agrees to $1.925 million
  with Davis-Bacon and state law. Thereafter, he     Settlement to Resolve Civil Cases
  advised the contractors that they could use the
                                                     March 26, 2009
  funds for purposes other than providing benefits
  to the employees on whose behalf the contribu-     The Commonwealth of Massachusetts Attorney
                                                                         General’s  Office  (MAGO)
                                                                         reached an agreement with
                                                                         Gannett  Fleming,  Inc.  of
                                                                         Massachusetts  and  Sika
                                                                         Corporation  (Sika)  of  New
                                                                         Jersey on March 26 resolv-
                                                                         ing civil claims in connection
                                                                         with  the  I-90  Connector
                                                                         Tunnel  Ceiling  Collapse,
                                                                         which occurred on July 10,
                                                                         2006. Gannett-Fleming, Inc.,
                                                                         which provided design ser-
                                                                         vices for the tunnel, will pay
                                                                         $1.575  million  and  forego
                                                                         $150,000  in  payments  due
                                                                         from the state, and Sika, which
                                                                         manufactured the epoxy used
                                                                         to secure the bolts anchoring
                                                                         the ceiling panel bracket sys-
                                                                         tem will pay $200,000. Of the
                                                                         total amount, $1.725 million
  tions were made. When Mr. Coren learned that       will be placed in the Central Artery Statewide
  one of the contractors was under investigation,    Road and Bridge Infrastructure Fund, which has
  he directed the contractor to destroy documents    a balance of over $400 million based on several
  that revealed transfers of funds out of the CBT    investigations relative to the CA/T Project.
  for expenses unrelated to the employees on
  whose behalf the funds were deposited. This        The investigation ultimately led to civil settle-
  fraud scheme impacted several New York area        ments with the CA/T Project’s management
  public works projects including the Metropolitan   consultant, Bechtel/Parsons Brinckerhoff; the
  Transportation Authority’s Metro-North Railroad    prime contractor, Modern Continental; and sev-

28   •  Highway and Transit Programs
                                                       Audits and Investigations
                                                                  Highway and Transit Programs
eral other companies. This investi-
gation was conducted jointly with MAGO,
the U.S. Attorney’s Office, the Massachusetts          invoices related to an anti-drunk driving billboard
State Police, the FBI, and the NTSB.                   campaign funded through NHTSA, along with
                                                       lying to federal agents during an interview.

Business Owner Sentenced to                            Sullinger’s company, GPG submitted a propos-
41 Months’ for Making False Claims                     al to the Illinois Department of Transportation
On Anti-Drunk Driving Billboard                        (IDOT) to use NHTSA-provided grant funds to
                                                       produce and to post anti-drunk driving bill-
Company Project                                        boards throughout the State of Illinois. In total,
March 30, 2008                                         between January 1999 and September 2004,
                                                       more than $1.5 million in Federal funds were
Robert Sullinger, owner of Great Plains Group,
                                                       paid through IDOT to Sullinger and his busi-
LCD (GPG) was sentenced in U.S. District
                                                       ness. Sullinger knowingly submitted false and
Court, Central District of Illinois, Springfield, IL
                                                       fraudulent invoices by overstating the number
on March 30 to a term of 41 months’ imprison-
                                                       of billboards that were produced and posted.
ment and 3 years’ supervised release. Sullinger
                                                       As a result, Sullinger and his business were
was also ordered to pay $524,500 in restitution
                                                       overpaid by more than $524,000. This inves-
to Sangamon County, NHTSA, and the FHWA.
                                                       tigation was conducted jointly with the FBI,
In November 2008, after 2 days of jury trial,
                                                       along with assistance from IDOT. n
Sullinger pled guilty to submitting false, inflated




                                                                        Semiannual Report to Congress  •  29
                                                     Audits and Investigations




           Rail & Maritime Programs and Economic Analysis

Audits                                               $381.1 million, $93.9 million less than budget
                                                     due largely to better than expected revenues,
Quarterly Report on Amtrak’s                         partially offset by higher than budgeted wages
                                                     and fuel, power, and utility costs. We identified
FY 2008 Operational Reforms Savings                  three near–term challenges facing Amtrak. First,
and Financial Performance                            an extended economic downturn could pose
November 12, 2008                                    risks to Amtrak’s ability to meet its ridership and
                                                     revenues targets. Second, Amtrak is scheduled
As mandated by the fiscal year (FY) 2008 Con-        to make $145 million retroactive wage payment
solidated Appropriations Act, we issued our          in FY 2009. While this payment can be accom-
quarterly report to the House and Senate Appro-      modated within Amtrak’s current cash balance,
priations Committees on Amtrak’s savings from        it is concerned that doing so would leave the
operational reforms and year–to–date financial       company with unacceptably low reserves at the
performance. Amtrak achieved $30.7 million in        beginning of FY 2010. Third, Amtrak has yet to
operating reform savings through July, $5.0 mil-     define a strategic direction which incorporates
lion more than it originally anticipated. However,   continuous operating improvements. Such a
we believe Amtrak will fall short of achieving its   strategic direction would allow the company to
$40.3 million FY 2008 operational reform savings     reduce its operating costs, freeing up Federal
target. Amtrak’s operating loss for FY 2008 was      support for Amtrak’s substantial capital needs.
                                                                      Semiannual Report to Congress  •  31
                                                         Enhancing FRA’S Oversight of Track
                                                         Safety Inspections
 Quarterly Report on Amtrak’s                            February 24, 2009
 FY 2009 Operational Reforms
                                                         This report represents the results of our audit
 Savings and Financial Performance
                                                         on Federal Railroad Administration’s (FRA)
 February 23, 2009                                       oversight of track safety inspections. We found
                                                         that FRA’s safety regulations for internal rail flaw
 As mandated by the fiscal year (FY) 2008 Consoli-
                                                         testing did not require the railroads to report
 dated Appropriations Act, we issued our quarterly
                                                         the specific track locations (milepost numbers
 report to the House and Senate Appropriations
                                                         or track miles) tested during these types of
 Committees on Amtrak’s savings from  opera-
                                                         inspections. We also found FRA’s inspection
 tional  reforms  and  year–to–date financial perfor-
                                                         data system did not provide adequate informa-
 mance. Amtrak is not pursuing any new operational
                                                         tion for determining the extent to which FRA’s
 reform savings in FY 2009. Amtrak’s  operating
                                                         track  inspectors  have reviewed  the  railroads’
 loss December totaled $82.2 million, $26.1 million
                                                         records  for  internal  rail flaw  testing  and  vi-
 less than originally fore-
                                                                                  sual track inspections to
 cast, largely due to lower
                                                                                  assess  compliance  with
 than  expected  revenues
                                                                                  safety  regulations.  We
 being  more  than  offset
                                                                                  recommended that FRA
 by lower employee  ben-
                                                                                  revise  its  track  safety
 efit  and fuel costs. For FY
                                                                                  regulations  for  internal
 2009, Amtrak projects an
                                                                                  rail flaw testing to require
 operating  loss  of
                                                                                  the  railroads  to  report
 $476  million,  only
                                                                                  all track locations cov-
 $1 million more than origi-
                                                                                  ered  during  internal  rail
 nally forecast, despite sig-
                                                                                  flaw  testing.  We  also
 nificant projected changes
                                                                                  recommended that FRA
 in  both  revenues  and
                                                                                  revise its Track Safety
 expenses.  Amtrak  re–
                                                                                  Compliance Manual and
 estimated  both  revenue
                                                                                  inspection data system
 and ridership forecasts in
                                                                                  by including specific in-
 light of the steep decline in the economy since
                                                         spection activity codes for its track inspectors
 the FY 2009 budget forecasts were prepared last
                                                         to report on whether the record reviews the
 summer. The OIG believes that Amtrak requires
                                                         inspectors conducted were for internal rail flaw
 no more than $40 million above the current Con-
                                                         testing or visual track inspections. FRA agreed
 tinuing Resolution level for operating subsidies in
                                                         with our recommendations and has either taken
 order to reduce the risk associated with Amtrak’s
                                                         or planned corrective actions. n
 revenue forecasts and to implement Amtrak’s
 decision regarding its defeased leases.




32   •  Rail & Maritime Programs and Economic Analysis
                                                     Audits and Investigations




                        Financial and Information Technology

Audits                                               properly reduced when minimum operating
                                                     requirements were not met and, further, that
Implementation of Controls Over                      MARAD’s controls are sufficient to ensure
                                                     that payments to contractors are processed
Payments to Maritime Security                        in the correct amounts. However, we made
Program Contractors                                  two observations for MARAD’s consideration
October 6, 2008                                      regarding (1) MARAD’s assurance that MSP
                                                     vessels adhered to cargo preference limita-
This report represents the results of our audit on   tions and (2) MARAD’s exclusion of liquid cargo
the MARAD’s implementation of controls over          from its application of the cargo preference
payments to Maritime Security Program (MSP)          limitation. Neither of these issues affected our
contractors. Our objective was to determine          results because no MSP vessels have carried
whether payments to MSP contractors were re-         the cargo in question. MARAD agreed with our
duced when minimum operating requirements            first observation and implemented the neces-
(related to number of days in foreign trade and      sary procedures during the course of the audit.
participation in other Federal programs) were        OIG Counsel is working with MARAD Counsel
not met. We determined that payments were            to resolve the second observation.



                                                                     Semiannual Report to Congress  •  33
                                                     tection of personally identifiable information re-
                                                     mained insufficient, as  did  protection  of  com-
                                                     puter  networks;  training  of  employees  and
                                                                       contractors was not being
                                                                       assured;  identification  of
                                                                       information–security  weak-
                                                                       nesses was not being con-
                                                                       sistently carried out, nor was
                                                                       timely  resolution  of  those
                                                                       identified; and departmental
                                                                       systems were not sufficiently
                                                                       protected or their recovery,
                                                                       when  necessary,  assured.
                                                                       We  made  27  specific  rec-
                                                                       ommendations  to  address
                                                                       these deficiencies. The DOT
                                                                       Chief  Information  Officer
                                                                       concurred with our findings
                                                                       and recommendations, and
                                                                       plans to provide a descrip-
                                                                       tion of specific actions to be
                                                                       taken  to  implement  these
                                                                       recommendations,  along
                                                                       with their milestone dates.
  DOT’s Information Security Program
  October 8, 2008                                    Quality Control Review of Audited
  This report represents the results of our an-      Financial Statements for FYs 2008
  nual audit of the Department’s information         and 2007, Saint Lawrence Seaway
  security program and practices, as required
  by the Federal Information Security Manage-        Development Corporation
  ment Act of 2002 (FISMA). Consistent with          November 7, 2008
  FISMA and Office of Management and Budget
  requirements, we assessed the effectiveness of     This report represents the results of our review
  DOT’s program and practices in this area, spe-     of the audit on the Saint Lawrence Seaway
  cifically (1) implementation of minimum security   Development Corporation’s Fiscal Years 2008
  standards, (2) configuration management, and       and 2007 financial statements. The Chiampou
  (3) incident–handling and reporting. We found,     Travis Besaw & Kershner LLP, under contract to
  overall,  that  the  Department’s  information     the Seaway, issued a clean (unqualified) audit
  security program was not effective. Despite        opinion and reported no internal control defi-
  some improvements, DOT had not established         ciencies.
  adequate policies and procedures; privacy pro-

34   •  Financial and Information Technology
                                                      Audits and Investigations
                                                        Financial and Information Technology
Quality Control Review of
Audited Financial Statements for                      Quality Control Review of Audited
FYs 2008 and 2007, FAA’s                              Financial Statements for
Administrative Services Franchise                     FYs 2008 and 2007, FAA
Fund                                                  November 13, 2008
November 10, 2008
                                                      This report represents the results of our review
This report represents the results of our review      of the audit on the FAA’s Fiscal Years 2008 and
on the audit of the FAA’s Administrative Services     2007 financial statements. KPMG LLP, under
Franchise Fund Fiscal Years 2008 and 2007 finan-      contract to us and under our supervision, issued
cial statements. The Reznick Group P.C., under        a clean (unqualified) audit opinion. However,
contract to us and under our supervision, issued      KPMG indentified two significant deficiencies,
a clean (unqualified) audit opinion. However, the     one in FAA’s timely processing of transactions
Reznick Group identified significant deficiencies     for  Property,  Plant,  and  Equipment,  including
in the Franchise Fund’s reconciliation of unfilled    the Construction in Progress account, and one
customer orders, timely liquidation of advances,      in information technology controls over FAA and
and collection of Government accounts receiv-         Third–Party Systems and Applications.
able. In addition, the Reznick Group identified
one noncompliance issue concerning Public
Law 104–205.
                                                      Quality Control Review of DOT’s
                                                      Audited Consolidated Financial
Quality Control Review of the NTSB’s                  Statements for FYs 2008 and 2007
FYs 2008 and 2007 Financial                           November 14, 2008
Statements                                            This report represents the results of our review
November 12, 2008                                     of the audit on the DOT’s Fiscal Years 2008
                                                      and 2007 financial statements. KPMG LLP,
This report represents the results of our review of   under contract to us and under our supervi-
the audit on the National Transportation Safety       sion, issued a clean (unqualified) audit opinion.
Board’s Fiscal Years 2008 and 2007 financial          However,  KPMG  indentified  seven  internal
statements.  Leon  Snead  &  Company,  P.C.,          control significant deficiencies, none of which
under contract to us and under our supervision,       were determined to be material weaknesses,
issued a clean (unqualified) audit opinion but re-    and four instances of potential or known non-
ported one material weakness on controls over         compliance with laws and regulations.
financial reporting, and a significant deficiency
in cost accounting.




                                                                       Semiannual Report to Congress  •  35
                                                     ters that are required to be reported under Gov-
                                                     ernment  Auditing  Standards  or  OMB  Bulletin
  Quality Control Review of DOT’s                    No. 07-04.
  Audited Special Purpose Financial
  Statements for FYs 2008 and 2007                   Review of NHTSA’s Fiscal Year 2008
  November 17, 2008                                  Drug Control Funds
                                                     February 4, 2009
  This report represents the results of our review
  of the audit on the DOT’s Fiscal Years 2008 and    We performed an attestation review for the Of-
  2007 Special–Purpose Financial Statements.         fice of National Drug Control Policy concerning
  KPMG LLP, under contract to us and under our       NHTSA’s reporting of the use of drug control
  supervision, issued a clean (unqualified) audit    funds and we concluded that NHTSA reporting
  opinion. Further, KPMG did not identify any        of drug control funds to the Office of National
  deficiencies in internal controls over financial   Drug Control Policy is presented in confor-
  reporting for the Special–Purpose Financial        mity with the Office of National Drug Control
  Statements that were considered to be material     Policy Circular: Drug Control Accounting, dated
  weaknesses, nor did tests of compliance with       May 1, 2007. n
  TFM Volume 1, Part 2, Chapter 4700 disclose
  any instances of noncompliance or other mat-




36   •  Financial and Information Technology
                                                    Audits and Investigations




                                         Acquisition and Procurement
Audits                                              vague and did not clearly define the basis for
                                                    rating performance, and performance evaluators
Interim Report on Award–Fee Criteria                were not required to document the rationale for
                                                    the performance ratings. This allows for unsup-
for FAA’s System Engineering and                    ported personal opinions for judging contractor
Technical Assistance II (SETA–II)                   performance. The effect of having evaluation
Contract                                            criteria without clearly defined metrics, vague
                                                    definitions of adjectival ratings, and no docu-
October 7, 2008                                     mentation to support performance ratings could
This interim report represents the results of our   result in inflated contractor performance evalua-
audit regarding FAA’s System Engineering and        tions and inappropriately approved award fees.
Technical Assistance II Contract as part of our     Additionally, contracting officials did not justify
ongoing audit of the Use of Cost–Plus–Award–        the cost effectiveness of selecting a CPAF–type
Fee (CPAF) contracts within the Department. We      contract  by  evaluating  administrative  costs
found that the performance evaluation plan did      versus expected benefits to the Government.
not include measurable criteria needed to ade-      Without this evaluation, FAA had no assurance
quately evaluate contractor performance. Also,      that a CPAF contract was appropriate. Senior
descriptions defining adjectival ratings were       FAA officials are implementing actions to meet
                                                    the intent of our recommendations.

                                                                     Semiannual Report to Congress  •  37
                                                      eral share charged to state DOT contracts is
                                                      $32.9 million). Lack of accountability at D&E
  FHWA’s Oversight of Design and                      firms and insufficient transaction testing by
                                                      Certified Public Accountant (CPA) firms were
  Engineering Firms’ Indirect Costs                   the immediate causes of unallowable costs we
  Claimed on Federal–Aid Grants                       found. Further, FHWA and state DOT oversight
  February 5, 2009                                    did not ensure effective monitoring of D&E firms’
                                                      indirect cost rate claims or indirect cost rate au-
  This report represents the results of our audit     dits performed by CPA firms. We recommended
  on the FHWA’s implementation of Section 307         that FHWA (1) require D&E firms to certify their
  of the National Highway Systems Designation         claims and authorize state DOTs to assess pen-
  Act (NHSDA). Section 307 of NHSDA requires          alties when D&E  firms  claim  known  unallow-
  the use of the Federal Acquisition Regulation       able  costs, (2) assign responsibility to specific
  as criteria to determine cost allowability when     states for overseeing CPA audit wor, (3) issue
  performing indirect cost rate audits of design      guidance on how to effectively procure audit
  and engineering (D&E) firms. Indirect rates         services, (4) establish an oversight program and
  are comprised of costs such as executive            process for monitoring state DOTs’ implemen-
  compensation; employee fringe benefits and          tation of Section 307 of NHSDA, and (5) recover
  wages; facilities charges; and insurance, legal,    the unallowable executive compensation costs
  consultant, and travel costs. State departments     and other unallowable expenses identified in
  of transportation (DOT) use indirect cost rates     this audit. n
  for reimbursing D&E firms for allowable costs
  incurred, establishing final contract costs, and
  negotiating new contracts. Our audit objectives
  were to evaluate the implementation of NHSDA
  Section 307 audit requirements, and test the al-
  lowability of executive compensation and other
  high risk indirect cost elements billed by D&E
  firms on state DOT contracts. Indirect cost rate
  claims from 21 of our sample of 41 D&E firms
  includedNunallowable  costs  some  expressly
  unallowable totaling about $15.7 million. About
  $10.7 million of the $15.7 million were unal-
  lowable  executive  compensation  and  about
  $5 million were other unallowable costs. Of the
  total, state DOT contracts were charged about
  $5.5 million, of which about $4.4 million the
  Federal share was reimbursed with Federal–aid
  funds. Based on the sample test results, we
  projected that, overall, D&E firms overcharged
  state  DOT  contracts  for  unallowable  execu-
  tive  compensation  of  $41.2  million  (the Fed-


38   •  Acquisition and Procurement
                                                     Audits and Investigations




                                                    Department-Wide Issues

Audits                                               maximizing the return on current highway and
                                                     transit infrastructure investments; operating the
DOT’s FY 2009 Top Management                         National Airspace System while developing and
                                                     transitioning to the Next Generation Air Trans-
Challenges                                           portation System; protecting against increasing
November 17, 2008                                    cyber security risks and enhancing the protec-
                                                     tion of personally identifiable information; pre-
We issued our annual report on the top man-          venting catastrophic failures and obsolescence
agement challenges facing the Department
                                                     in  the  nation’s  aging  surface  transportation
in FY 2009, as required by law. The issues
                                                     infrastructure;  improving  contract  operations
comprising  this  year’s  report  are  enhancing
                                                     and  maintaining  procurement  integrity;  and
aviation safety and maintaining confidence in
                                                     enhancing and deploying programs for reduc-
FAA’s ability to provide effective oversight of a
                                                     ing the serious consequences of surface trans-
rapidly changing industry; enhancing mobility
                                                     portation crashes. This report was included in
and reducing congestion in America’s trans-
                                                     the Department’s FY 2008 Performance and
portation system; developing a plan to address
                                                     Accountability Report.
projected highway and transit funding shortfalls;



                                                                      Semiannual Report to Congress  •  39
                                                    committing to data–driven, risk–based oversight
                                                    of bridge safety; and receiving a “clean” opinion
 Top Management Challenges Facing                   on DOT’s financial statements. However, the In-
                                                    spector General emphasized that more remains
 the Department of Transportation                   to be done in the areas of maintaining the safety
 March 10, 2009                                     of the traveling public, relieving congestion, and
                                                    establishing long–term financing mechanisms
 The Inspector General testified on the Depart-
                                                    for aviation and surface transportation programs.
 ment’s top management challenges before
                                                    The Inspector General highlighted several spe-
 the House Subcommittee on Transportation,
                                                    cific focus areas for DOT: (1) building an effective
 Housing and Urban Development, and Related
                                                    acquisition workforce to ensure that the goals of
 Agencies. The Inspector General focused on
                                                    the economic recovery program are achieved;
 short– and long–term actions that DOT should
                                                    (2)  establishing  effective  contractingnmecha-
 take to maximize investments in transportation
                                                    nisms and financial practices to facilitate sound
 and ensure transportation safety. The Inspec-
                                                    business decisions, ensure returns on invest-
 tor General also noted that the $48 billion for
                                                    ment, and avoid wasteful spending; (3) reforming
 Department programs associated with the
                                                    mechanisms to prevent fraud, waste, and abuse;
 American Recovery and Reinvestment Act adds
                                                    (4) developing comprehensive oversight of high-
 new challenges to long–standing ones. Thus far,
                                                    way and transit investments; (5) enhancing FAA’s
 DOT has proactively responded to the recovery
                                                    ability to provide oversight of a dynamic aviation
 program, particularly by creating the Department
                                                    industry; (6) addressing obsolescence in the Na-
 Transportation Investment Generating Economic
                                                    tion’s aging surface infrastructure and enhancing
 Recovery (TIGER) team to coordinate DOT–wide
                                                    surface safety programs; and (7) ensuring sol-
 efforts. This past year, DOT also made progress
                                                    vency in the Highway and Aviation Trust Funds
 on a number of important fronts. These include
                                                    to carry out its mission of enhancing mobility and
 commissioning several new runways to improve
                                                    reducing congestion. n
 capacity within the National Airspace System;




40   •  Department-Wide Issues
                                                      Audits and Investigations
                                                                        Department-Wide Issues
Investigations
                                                      (ICE) contacted the OIG and advised that ICE
Air Traffic Control Specialist Sentenced              executed a Federal search warrant at Fruth’s
to 78 Months’ Imprisonment for                        residence and seized evidence indicating that
Charges of Child Pornography                          Fruth received and viewed pornographic images
                                                      of children. Subsequent analysis of a computer
November 14, 2008
                                                      and USB thumb drive seized from Fruth’s home
David Trigg, Air Traffic Control Specialist, was      identified approximately 40,000 pornographic
sentenced on November 14 to 78 months’ Im-            images and videos of children. No pornographic
prisonment and a lifetime of supervised release       images were found on Fruth’s official govern-
in U.S. District Court, St. Louis, Missouri. Trigg    ment  computer.  As  part  of  the  supervised
pled guilty on August 27, 2008, to Receipt of         release conditions, Fruth cannot possess any
Child Pornography and Possession of Child             computer or device capable of establishing
Pornography. During the OIG investigation, Mr.        an internet connection. Fruth cannot hold any
Trigg admitted to utilizing an FAA computer to        internet subscriptions and must register with
access child pornography prior to his morning         Maryland’s Sex Offender Registry. As a result of
shifts in the air traffic control tower at the St.    the OIG investigation, Fruth resigned from FAA
Louis Airport. Additionally, forensic analysis con-   in November 2008.
ducted on Mr. Trigg’s home computer, confirmed
multiple images depicting child pornography.          Former FAA Employee and Business
Mr. Trigg was removed from Federal service
effective November 28, 2008. This investigation       Owner Indicted for $2.8 Million
was conducted jointly with the FBI.                   Excess Property Theft Scheme
                                                      February 4, 2009
Former FAA Headquarters Air                           A Federal grand jury in the Western District of
Traffic Control Security Coordinator                  Washington, Seattle, Washington, indicted Steven
Sentenced to 5 years’ Imprisonment                    B. Smith, former Air Traffic Systems Specialist at
                                                      the FAA facility in Carlsbad, California, and his
for Possession of Child Pornography                   half-brother, Bradley Garner, a Canadian citizen
January 8, 2009                                       and Palm Dessert, California resident and busi-
                                                      ness owner, for Wire Fraud and Theft of Honest
Timothy Fruth, former Air Traffic Control Security
                                                      Services. They were indicted on February 4 in
Coordinator assigned to the National Command
                                                      connection with a scheme to steal excess gov-
Center at the FAA Headquarters, was sentenced
                                                      ernment property valued at $2.8 million.
on January 28 in U.S. District Court, Greenbelt,
Maryland, to 5 years’ imprisonment followed by
                                                      In April 2008, the OIG received a referral from the
a 5 year period of supervised release for pos-
                                                      General Services Administration, Office of Inspec-
session of child pornography. An agent of the
                                                      tor General (GSA/OIG). The information alleged
Immigration and Custom Enforcement Agency
                                                      that Smith caused the transfer of ownership of


                                                                       Semiannual Report to Congress  •  41
                                                      Former New Jersey FAA Supervisor
                                                      Sentenced to Two Years’ Imprisonment
 a 44-foot sailboat from GSA’s excess property
 inventory to DOT, although he had no authority       for Accepting Bribes from an FAA
 to do so. Smith told GSA he was acquiring the        Contractor
 sailboat for DOT and that the boat would be used     March 6, 2009
 by MARAD employees. Subsequent investigation
 determined that since 2004, Smith used excess        Darrell K. Woods, a former FAA program manager
 property screening codes (called account activity    at the FAA’s William J. Hughes Technical Center
 codes) belonging to the FAA and MARAD to ille-       in New Jersey, was sentenced on March 6 in U.S.
 gally obtain property from the GSA property sys-     District Court, Trenton, New Jersey, for his role
 tem. Among the 215 items Smith allegedly stole       in accepting bribes from Maria Lianidis, former
 were a Cessna 210; two 27-foot Boston Whalers;       president  of  Digital  Management  Systems,
 several computers; and the 44-foot Navy yacht.       Inc. (DMS), a computer engineering company
 Smith turned the yacht over to Garner, who took it   based in Absecon, New Jersey. Mr. Woods was
 to Canada. Smith also gave                                                   sentenced  to  2  years’
 Garner the Cessna, and al-                                                   imprisonment,  payment
 though the plane is owned                                                    of $154,000 in restitu-
 by  the  Government,  Gar-                                                   tion  to  the  FAA,  and
 ner  took  out an insurance                                                  3  years  of  supervised
 p o l i c y   a n d   re c e i v e d   a                                     release.  Mr.  Woods pled
 $45,000  payment  when                                                       guilty to wire fraud and
 the  plane  was  damaged                                                     money laundering in con-
 during a storm in 2007. In                                                   nection  with  accepting
 November  2008,  the  OIG                                                    approximately  $155,000
 executed search warrants at                                                  in cash between 2001
 Smith’s and Garner’s homes                                                   a n d   2 0 0 5   f o r   s t e e r-
 and  both  were  arrested.                                                   ing  millions  of  dollars
 Smith  resigned  from  the                                                   in  contracts  to  DMS.
 FAA on January 1, 2009.                                                      In  exchange  for  these
                                                                              bribes,  Ms.NLianidis
 This  investigation  was                                                     influenced Mr. Woods in
 conducted  jointly  with                                                     the performance of his
 the GSA/OIG, the Army Criminal Investigation         official duties, which included participating in
 Division,  the  Defense  Criminal  Investigative     the creation of FAA contract solicitations and
 Service, the Navy Criminal Investigative Service,    overseeing DMS’ performance on FAA contracts
 and the FBI.                                         that DMS obtained with Mr. Woods’ assistance.
                                                      Since  2001,  Mr.  Woods  had  issuedNabout
                                                      $2.5 million in purchase orders to DMS. Around
                                                      January 2003, Mr. Woods drafted a sole-source
                                                      justification to award DMS a contract; ultimately,
                                                      in October 2003, DMS was awarded a competitive

42   •  Department-Wide Issues
                                                      Audits and Investigations
                                                                        Department-Wide Issues
contract that resulted in payments
in excess of $4.2 million. DMS was bidding
on a solicitation valued in excess of $34 million     In  December  2008, Gonzalez pled guilty to em-
when OIG and the Internal Revenue Service ex-         bezzlement charges for falsely representing that he
ecuted search warrants in February 2005. The          lived in Ohio on official travel vouchers and other
solicitation was ultimately canceled. Ms. Lianidis,   documents, when in fact he lived in New York, in
a former FAA employee, was sentenced for her          order to fraudulently obtain travel  reimbursement
role in the scheme in December 2008 to 4 years’       for official travel. Gonzalez was employed by the
imprisonment and fined $75,000. The FAA has           FAA Airways Facilities Division, Jamaica, New
debarred Ms. Lianidis, Mr. Woods and DMS from         York and his duties required him to be in an almost
Government contracting.                               100% state of travel while repairing electronic
                                                      equipment at field locations. In 2000, Gonzalez
                                                                               advised FAA he would be
                                                                               changing  his  residence
                                                                               from a New York location
                                                                               to Findlay, Ohio; however,
                                                                               the investigation revealed
                                                                               that he was actually living
                                                                               in a hotel in Rome, New
                                                                               York. In addition, Gonza-
                                                                               lez claimed to be working
                                                                               at  locations  outside  of
                                                                               Rome, New York when in
                                                                               fact he remained in Rome,
                                                                               New York. Gonzalez took
                                                                               retirement from the FAA
                                                                               following his arrest by OIG
                                                                               special  agents.  This  in-
                                                      vestigation was conducted jointly with assistance
Former New York FAA Electronics                       from FAA Eastern Region Security & Hazardous
Engineer Sentenced for $50,000                        Materials Division. n

Travel Voucher Fraud Scheme
March 17, 2009

Robert C. Gonzalez, a former electronics techni-
cian with the FAA, was sentenced on March 17
in U.S. District Court, Brooklyn, New York to
serve 2 months’ home confinement and 3 years’
supervised release as a result of his guilty plea
to embezzlement charges. Gonzalez also paid
$21,603.89 in restitution to the FAA.

                                                                        Semiannual Report to Congress  •  43
                                                     Other Accomplishments




                                                   Other Accomplishments

This section highlights other accomplishments and contributions by Office of Inspector General staff
that extend beyond the legal reporting requirements of the Inspector General Act. These accom-
plishments are part of our statutory responsibilities to review existing and proposed legislation and
regulations; respond to congressional and departmental requests for information; and review policies
for ways to promote effectiveness and efficiency and detect and prevent fraud, waste, and abuse.



Helped Russian Aviation Authorities                 proved and unairworthy aircraft parts. Experi-
                                                    ence has shown that such parts procured in the
Enhance Their Suspected Unapproved
                                                    U.S. are frequently sold in foreign commerce and
Parts Program                                       vice-versa. FAA safety inspectors and experts in
                                                    unapproved parts, as well as the Federal Bureau
In November 2008, at the request of the FAA,
                                                    of Investigation, participated in the 3-day pro-
OIG Investigations provided training to Russian
                                                    gram, which focused on U.S. regulatory require-
Federal Air Transport Agency officials on the
                                                    ments and law enforcement’s role in these types
manufacture, sale, and distribution of unap-
                                                    of parts investigations.



                                                                     Semiannual Report to Congress  •  45
                                                        multifaceted, including to demonstrate how an
                                                        Office of Inspector General works; how audits
 Our presentations described OIG’s statutory            can be expanded and help in the fight against
 authority to conduct these investigations, how         corruption; how much “investigation” can be
 regulators and law enforcement personnel can           done, or information gathered, without having
 effectively work together to combat this type of       to rely on traditional law enforcement measures
 fraud, and the criminal statues applicable to fraud    such as wiretapping and arrest authority; and
 involving aircraft parts in interstate and foreign     how auditors can work with traditional law en-
 commerce. We also provided insights on how             forcement agencies and contribute to criminal
 to watch for aircraft parts “red flag” fraud indi-     cases.
 cators and profiled several significant criminal
 investigations. One of the investigations high-        The featured speaker was USDOT Deputy Sec-
 lighted resulted in the conviction and 78-month        retary Admiral Thomas Barrett, who provided
 prison sentence of a parts supplier for making         the visitors with his perspective and insights
 materially fraudulent representation concerning        regarding how senior Departmental officials and
 the condition of aircraft parts, in violation of the   an Inspector General can best work together to
 Aircraft Safety Act of 2000. These parts included      successfully achieve mutual goals and objec-
 turbine exhaust strut rods, shaft assemblies,          tives, namely upholding the taxpayers’ trust.
 and gang bolt assemblies all flight-critical parts     Other presentations addressed such topics as
 whose failure could be potentially catastrophic.       the OIG’s authority and jurisdiction, investiga-
 This outreach effort helped strengthen important       tive organization and priorities, and the audit
 international working relationships, facilitate        organization and its process. In addition, with
 more effective fraud prevention and detection,         the assistance of interpreters, interactive dis-
 and ultimately, the safety of the flying public and    cussions were held concerning the value of
 others on the ground.                                  digital evidence, conducting employee integrity
                                                        investigations, Congressional and media out-
                                                        reach activities, and the results of several recent
 Provided Suggestions to Ukrainian
                                                        significant OIG investigations and audits. The
 Officials on Establishing an Internal                  Ukrainian officials/attendees said they learned
 Investigative Unit Similar to an Office                a lot they can use in the creation of their new
                                                        office and that they hoped to someday return for
 of Inspector General
                                                        additional presentations and discussions.
 At the request of the U.S. Department of Justice,
 Office of Overseas Prosecutorial Development,
 the Inspector General hosted several senior
 Ministry of Transport and Communications, and
 State Customs Service officials from the Ukraine
 for a day of briefings during their week-long visit
 to Washington, DC in December 2008, as part
 of the U.S. Millennium Challenge Corporation
 “Threshold Country Program.” Our purpose was


46   •  Other Accomplishments
                                                   Other Accomplishments

Improvements Suggested for
Terms of the American Recovery                     mittee (the Task Force), mandated by the Safe,
and Reinvestment Act (ARRA) Grants                 Accountable, Flexible, Efficient Transportation
                                                   Equity Act: A Legacy for Users (SAFETEA-LU),
ARRA requires funded contracts be awarded          during its study of current impediments and fore-
at fixed prices through the use of competitive     seeable challenges to the CDL program, which
procedures to the maximum extent possible.         is  administered  by  the  Federal Motor  Carrier
The OIG suggested that the Senior Procurement      Safety  Administration.  Our efforts  focused  on
Executive (SPE) issue guidance for Operating       driver’s motives to commit fraud, internal state
Administrations (OA) to reinforce maximizing the   driver licensing agencies fraud, and third-party
use of competition, fixed-price contracts and      testing fraud, among other issues. For example,
small businesses, per the ARRA and Office of       some of the driver’s motives for committing fraud
Management and Budget implementing guid-           we highlighted included:
ance. The SPE decided to implement the sug-
gestion by developing and issuing new standard      •	 inability to pass the written examination
grant terms for ARRA grants.                           because of language barriers;
                                                    •	 lack of sufficient training to pass the written
The SPE’s February 27, 2009 memorandum re-             or skills tests, or both;
quired OAs to include terms in grants to ensure     •	 desire to conceal the fact that their CDL has
that, to the maximum extent practical, small           been withdrawn; and
businesses have opportunities to compete and
contracts are awarded on a fixed-price basis        •	 unwillingness to wait the time necessary
through the use of competitive procedures. The         from completion of the knowledge and
memorandum noted small businesses must be              skills tests to the subsequent issuance of
ensured the opportunity to compete because             a license.
they are critical in stimulating economic growth
and creating jobs. Use of fixed-price contracts    In December 2008, the Task Force issued its
and competitive procedures should help ensure      report to Congress identifying findings and
the best prices are obtained for the goods and     recommendations for legislative, regulatory,
services purchased under the act.                  and enforcement changes to improve the CDL
                                                   program. The report contained a section on op-
                                                   erational procedures to detect and deter fraud,
Facilitated a Better Understanding of              developed in part based on our contributions. n
Commercial Driver’s License (CDL)
Fraud for a Congressionally Mandated
Task Force
OIG Investigations provided numerous inputs to
a Secretary of Transportation-established Com-
mercial Driver’s License (CDL) Advisory Com-


                                                                    Semiannual Report to Congress  •  47
                                           Work Planned and In Progress



This section describes work projects currently underway or planned by the Office of Inspector General
that focus on the Department’s Strategic Plan and its core missions of transportation safety and
mobility. We take into account the need to support DOT’s most critical programs and to assure that
departmental resources are protected from fraud, waste, and abuse. In addition, many of our projects
arise from requests by Administration officials and members of Congress.

The OIG has developed the following work plan for the period of April 1, 2009, through September 30, 2009.




AVIATION AND SPECIAL PROGRAMs
IN PROGRESS
Review of FAA’s Automatic Dependent                    FAA Must Address Regulatory and
Surveillance Broadcast (ADS-B)                         Oversight Differences Between
Program                                                Commercial Air Carriers and On-
Examine key risks to FAA’s successful imple-
                                                       Demand Operators Congressional
mentation of ADS-B and assess the strengths            Request
and weaknesses of FAA’s proposed contracting
approach.                                              Evaluate the differences between FAA regula-
                                                       tions and oversight for on-demand operators
                                                       versus larger commercial air carriers.
Challenges to FAA Oversight of On-
Demand Operators Congressional                         Review of FAA Oversight of
Request                                                Maintenance Programs at One Air
Identify specific issues that may hinder FAA in        Carrier
its oversight, such as lack of adequate data on
on-demand operators.                                   Determine  whether  (1)  maintenance-related
                                                       events such as in-flight emergencies or diversions
                                                       or  other  negative  maintenance-related  trends
Review of FAA’s Call to Action Plan for                have increased at this air carrier; and (2) FAA has
Improving Runway Safety                                verified that the air carrier’s maintenance pro-
                                                       gram, including its system of continuous analysis
Evaluate the effectiveness of actions taken in         and surveillance, is operating effectively.
response to FAA’s “Call to Action Plan” for im-
proving runway safety.


                                                                         Semiannual Report to Congress  •  49
                                                       FAA’s Screening, Placing, and Initial
                                                       Training of Newly Hired Air Traffic
 FAA Oversight of Use of Airport
                                                       Controllers
 Revenue – Denver International
 Airport                                               Evaluate the FAA’s processes for screening,
                                                       placing and training newly hired air traffic con-
 Determine whether FAA’s oversight ensures             trollers
 that the Denver International Airport is using
 revenues only for airport purposes and is as
                                                       Review of Potential Controller Fatigue
 self-sustaining as possible.
                                                       Issues at Chicago O’Hare ATCT and
 Review of PHMSA’s Special Permits                     TRACON, and Chicago Center
 and Approvals Programs                                Evaluate key factors that could contribute to
                                                       controller fatigue at Chicago O’Hare ATCT and
 Assess the effectiveness of (1) PHMSA’s policies      TRACON and Chicago Center and identify what
 and processes for reviewing and authorizing           measures FAA has taken to mitigate potential
 special  permits  and  approvals;  (2)  PHMSA’s       controller fatigue at those locations.
 coordination  with  the  affected  Operating  Ad-
 ministration before issuing any of these special
 authorizations; and (3) PHMSA, FAA, FMCSA,            FAA Oversight of Required Navigation
 and FRA oversight and enforcement of approved         Performance (RNP) Third-Party
 parties’ compliance with terms and conditions
                                                       Agreements
 of these authorizations.
                                                       Assess the extent to which FAA is relying on
 Air Traffic Controller Trainee Attrition              third parties for the development of new RNP
                                                       procedures  and  determine  whether  FAA  has
 Determine (1) the attrition rate among newly-         established sufficient mechanisms and has suf-
 hired air traffic controllers and (2) the common      ficient staffing to provide safety oversight of the
 causes and factors that are contributing to that      third parties.
 rate.
                                                       Follow-Up Review of Aviation
 Review of the Air Traffic Controller                  Transportation Oversight System
 Optimum Training Solution (ATCOTS)                    (ATOS)
 Program
                                                       Determine  whether  FAA  has  (1)  completed
 Review the financial and contractual aspects          timely  inspections  of  air carriers’  systems  for
 of the ATCOTS program, as well as how the             monitoring  critical  maintenance  programs,
 training program will differ from what is currently   (2) tested and validated that these carrier sys-
 provided the controller workforce.                    tems are operating effectively, and (3) effectively
                                                       implemented ATOS for the remaining air carriers
                                                       regulated under 14 C.F.R. § 121.
50   •  Work Planned and In Progress
                                         Work Planned and In Progress


Review of FAA’s Oversight
Airworthiness Directive (AD)                        PLANNED
Compliance
                                                    Reducing Delays and Improving
Evaluate FAA’s two-part, special-emphasis in-
spection of air carriers’ compliance with ADs to
                                                    Customer Satisfaction with Air Travel
determine whether FAA (1) selected a represen-      (1) Assess delays and performance of the
tative sample of ADs for review, (2) thoroughly     National Airspace System in light of airline de-
reviewed air carriers’ compliance with the se-      cisions to reduce flight schedules, (2) analyze
lected ADs, and (3) ensured that air carriers       the delay problem specifically in the New York
implemented corrective actions to improve AD        region and its corresponding affect across the
compliance where needed.                            country, (3) examine progress in implementing
                                                    the 77 initiatives emphasized by the New York
Review of the System - Wide                         Aviation Rulemaking Committee for reducing
                                                    delays in New York, and (4) highlight impacts
Information Management Program                      from airline changes on travelers and airports.
(SWIM)
Determine the status of FAA’s efforts to develop    Certification of Next Generation Air
and implement SWIM, and assess the risks fac-       Transportation System Technologies
ing nationwide deployment
                                                    Conduct an assessment of (1) recent changes to
                                                    the FAA’s certification program with regard to the
Review of the Joint Planning and                    FAA’s overall responsibility for maintaining the
Development Office’s Progress                       safety and integrity of air traffic control systems,
Toward the Next Generation Air                      and (2) the implications of allowing the private
                                                    sector to assume the responsibility for determin-
Transportation System (NextGen)                     ing the operational suitability of systems under
                                                    its control. n
Review (1) NextGen’s impact on FAA’s Joint Plan-
ning and Development Office’s partner agencies’
research and capital budgets, (2) FAA’s progress
in response to our February 2007 recommenda-
tions, (3) issues that need to be addressed to
shift NextGen from research and development
to implementation in a timely manner, and (4) the
role of external user review and input into key
NextGen policy matters. n




                                                                      Semiannual Report to Congress  •  51
 HIGHWAY AND TRANSIT programs
 IN PROGRESS

 NHTSA’s Oversight of Research and                   Follow-up Audit on the
 Demonstration Projects                              Implementation of the North America
 Determine whether NHTSA (1) allocated research
                                                     Free Trade Agreement’s Cross-Border
 funds and selected projects based on likelihood     Trucking Provisions
 to reduce the number and severity of crashes
 or other targeting strategy; (2) systematically     Assess FMCSA’s ongoing compliance with
 evaluated and disseminated results to improve       safety criteria related to Mexico-domiciled mo-
 safety; and (3) used risk-based internal control    tor carrier operations beyond the commercial
 framework for oversight of contractors and          zones.
 grantees as a means to prevent fraud, waste,
 and abuse.                                          Assessment of the Central Artery/
                                                     Tunnel Stem to Stern Safety Review
 FTA’s Oversight of the Access to the
                                                     Continue the effort to ensure that the Central
 Region’s Core (ARC) Project, Northern               Artery/Tunnel Stem to Stern Safety Review is
 New Jersey                                          comprehensive and conducted in a complete
                                                     and rigorous manner. We will also follow up on
 Assess the main risks facing this $9 billion        the corrective actions taken in response to our
 proposed transit project and evaluate FTA’s         report “Initial Assessment of the Central Artery/
 oversight efforts to ensure that risk mitigation    Tunnel Project Stem to Stern Safety Review”.
 strategies are implemented.

                                                     FHWA Transportation Technology
 FHWA Funding to Correct Structurally
                                                     Innovation and Demonstration (TTID)
 Deficient Bridges
                                                     Program
 Assess the extent to which states effectively and
 efficiently use FHWA funds to correct structur-     The  objectives  are  to  assess  whether  FHWA
 ally deficient bridges.                             (1) met its surveillance and data management
                                                     goals, (2) met the program objectives and (3) pro-
                                                     vided for competition in the award of contracts
                                                     used to expand the TTID program, as specified
                                                     in Section 5508 of SAFETEA-LU.




52   •  Work Planned and In Progress
                                         Work Planned and In Progress



Implementation of FMCSA’s                           PLANNED
Motor Coach Safety Program
Determine whether FMCSA is effectively imple-
                                                    Oversight of American Recovery and
menting the six priorities in its National Motor    Reinvestment Act
Coach Safety Program.
                                                    We will perform an environmental scan — a
                                                    quick, but structured survey based on the key
MARAD’s Title XI Loan Guarantee                     challenges and focus areas we identified in our
Program                                             American Recovery and Reinvestment Act of
                                                    2009 (ARRA) report. This environmental scan
Determine whether MARAD is in compliance            will assess the capacity of the Department, in-
with the recommendations contained in our           cluding the FHWA and FTA, to implement ARRA
2003 and 2004 audit reports on the Title XI Loan    requirements, and identify vulnerabilities that
Guarantee Program. This audit was requested         could result in fraud, waste, and abuse. n
by the Senate Committee on Appropriations,
Subcommittee on Transportation, Housing and
Urban Development, and Related Agencies. n




RAIL & MARITIME programs AND economic analysis
IN PROGRESS

Amtrak Quarterly Reports on                         Causes of Delays on the Amtrak
Operational Savings                                 Cascades and Coast Starlight Routes
As mandated by Congress, we will issue quarterly    Investigate the causes of Amtrak delays and ser-
reports to the House and Senate Committees on       vice interruptions on the two Amtrak routes. n
Appropriations on our estimates of the savings
accrued as a result of operational reforms insti-
tuted by Amtrak. n




                                                                    Semiannual Report to Congress  •  53
 Financial and information technology
 IN PROGRESS

 FAA’s Correction of Security                          Security and Privacy Controls over the
 Weaknesses in Air Traffic Control                     Medical Support System
 Systems                                               Determine  whether  (1)  airmen’s  personally
 Assess the progress and report on the status          identifiable information is properly secured from
 of FAA’s efforts to correct security weaknesses       unauthorized use or access and (2) FAA has
 identified previously in air traffic control sys-     made progress in establishing a program to
 tems: (1) developing a business continuity plan       flag airmen holding a current medical certificate
 to ensure continued en route center operations        while receiving disability pay.
 and (2) conducting security certification reviews
 to identify software differences between opera-       Improper Payments in the Airport
 tional air traffic control systems and the baseline
 systems tested in the computer laboratory.
                                                       Improvement Program
                                                       Determine whether FAA has adequate controls to
 Data Integrity of the Commercial                      prevent and detect improper payments to grant
                                                       recipients of the Airport Improvement Program.
 Drivers License Information System
 (CDLIS)                                               DOT’s Implementation of Personal
 Determine whether (1) convictions and other           Identify Verification (PIV) Cards
 personal information recorded in CDLIS and
 state DMV’s systems are accurate, timely, and         Determine if DOT (1) has an effective process
 complete; (2) CDLIS and state DMV’s systems           to issue, maintain, and terminate functional PIV
 are adequately secured according to minimum           cards for employees and contractors and (2) is
 security  standards  to  prevent  unauthorized        adequately protecting the personal information
 access to privacy data; and (3) an adequate           collected, stored, processed, and transmitted
 contingency plan exists to ensure continual           on the PIV systems.
 CDLIS service to state DMV’s in the event of a
 disaster.




54   •  Work Planned and In Progress
                                        Work Planned and In Progress



Quality Control Review of
DOT’s Enterprise Service Center                    PLANNED

Perform a quality control review of the audit by   Quality Control Review of FYs 2009
an independent public accounting firm and de-
termine if the audit was performed in accordance
                                                   and 2008 NTSB Financial Statements
with applicable auditing standards.                Perform a quality control review of the audit by
                                                   an independent public accounting firm and de-
Quality Control Review of                          termine if the audit was performed in accordance
                                                   with applicable auditing standards.
FYs 2009 and 2008 DOT
Consolidated Financial Statements
                                                   DOT’s Information Security Program
Perform a quality control review of the audit by   and Practices for FY 2009
an independent public accounting firm and de-
termine if the audit was performed in accordance   Perform the annual review required by the
with applicable auditing standards.                Federal Information Security Management Act
                                                   of 2002. Determine the effectiveness of DOT’s
                                                   information security program and practices and
Quality Control Review of FYs 2009                 complete OMB’s template for security assess-
and 2008 FAA Financial Statements                  ments and performance measures. n

Perform a quality control review of the audit by
an independent public accounting firm and de-
termine if the audit was performed in accordance
with applicable auditing standards. n




                                                                   Semiannual Report to Congress  •  55
 acquisition and procurement
 IN PROGRESS

 DOT’s Suspension and Debarment                      Review of the Use of Price and Cost
 Policies and Procedures                             Analysis for Newly Awarded and
 Determine whether (1) the Department’s suspen-
                                                     Modified Contracts
 sion and debarment policies and procedures are      Determine whether FAA (1) sufficiently justified
 adequate to ensure that fraudulent or unethical     and properly reviewed and approved the use of
 individuals  or  companies  are  excluded  from     non-competitive  contracts  and  (2)  adequately
 contracts, grants, and cooperative agreement;       performed and properly documented price and
 and (2) operating administrations are effectively   cost analyses applicable to the contract.
 implementing the Department’s suspension and
 debarment policies and procedures.
                                                     FMCSA’s Contract Practices
 Use of Cost-Plus-Award-Fee Contracts                Determine whether FMCSA’s contract award and
 Within DOT                                          administration practices comply with applicable
                                                     laws and regulations and follow agency-specific
 Determine whether cost-plus-award-fee con-          guidance. n
 tracts were effectively designed and adminis-
 tered in the best interest of the Government.       PLANNED
 Specifically, we will determine whether (1) award
 fee  plans  established  adequate  criteria  for    Planning for the Department’s
 evaluating contractor performance, and (2) the
 amount of award fees paid to contractors was
                                                     Acquisition Workforce Requirements
 adequately supported.                               Determine whether the Department has made
                                                     adequate progress developing a strategic plan
                                                     for the acquisition workforce. Specifically we
                                                     will determine whether the Department (1) has
                                                     sufficiently  estimated  acquisition  workforce
                                                     requirements based on expected acquisitions;
                                                     (2) accessed the capabilities of the workforce;
                                                     and (3) has made sufficient progress training,
                                                     recruiting, and retaining its workforce. n




56   •  Work Planned and In Progress
                                            Statistical Performance Data


Summary of Performance
Office of Inspector General
October 1, 2008 – March 31, 2009
(Dollars in Thousands)




               Reports Issued	                                               46


               Recommendations Issued	                                      170


               Congressional Testimonies	                                     4*


               Total Financial Recommendations	                       $429,965


                     That Funds Be Better Used	                       $401,600
                     Questioned Costs	                                 $28,365


               Indictments	                                                  43


               Convictions	                                                  60


               Fines, Restitutions, and Recoveries	                    $59,744




*One testimony was given before the National Transportation Safety Board.




                                                                    Semiannual Report to Congress  •  57
 Audits
 Completed OIG Reports
 October 1, 2008 – March 31, 2009
 (Dollars in Thousands) *


                              Number         Number of       Questioned   Unsupported     Funds to be
       Type of Review        of Reports   Recommendations      Costs         Costs      Put to Better Use

   Internal Audits
   Performance/                   13                83       $4,400             $0          $61,100
   Attestation
   Engagements

   Financial Audits                6                45           $0             $0        $340,500

   Other OIG                       1                 0           $0             $0                 $0
   Reports

   Total Internal                 20               128       $4,400             $0        $401,600
   Audit Reports

   Grant Audits
   Audits of Grantees             26                42      $23,965             $0                 $0
   Under Single Audit
   Act


   TOTALS                         46               170      $28,365             $0        $401,600


 *  The dollars shown are the amounts reported to management. The actual amounts may change
 during final resolution.

 Department of Transportation programs and operations are primarily carried out by the Department’s
 own personnel and recipients of Federal grants. Audits by DOT’s Office of Inspector General, as a
 result, generally fall into three categories: internal audits of Departmental programs and operations,
 audits of grant recipients, and other OIG reports. The table above shows OIG’s results for the 6 months
 covered by this report.


58   •  Statistical Performance Data
                                           Statistical Performance Data




OIG Reports with Recommendations that Questioned Costs
October 1, 2008 – March 31, 2009
(Dollars in Thousands)


                               Number of       Number of         Questioned        Unsupported
                                Reports     Recommendations        Costs              Costs

 A.   For which no                  16                 33        $29,249                    $0
      management decision
      had been made by the
      start of the reporting
      period

 B.   Which were issued             17                 25        $28,365                    $0
      during the reporting
      period


      Totals (A+B)                  33           $57,614               58                   $0

 C.   For which a                     8                 9        $13,107                    $0
      management decision
      was made during the
      reporting period

      (i) dollar value of             8                 9         $8,695                    $0
      disallowed costs*

      (ii) dollar value of            1                 1         $6,516                    $0
      costs not disallowed *

 D    For which no                  25                 49        $44,507                    $0
      management decision
      had been made by the
      end of the reporting
      period


*  Includes reports and recommendations where costs were both allowed and disallowed.




                                                                  Semiannual Report to Congress  •  59
 OIG Reports with Recommendations that Funds Be Put to Better Use
 October 1, 2008 – March 31, 2009
 (Dollars in Thousands)


                                                              Number of         Funds to be
                                       Number of Reports   Recommendations    Put to Better Use

   A.   For which no                                 0                   0                   $0
        management decision
        had been made by the
        start of the reporting
        period

   B.   Which were issued                            4                   5           $401,600
        during the reporting
        period


        Totals (A+B)                                 4                   5           $401,600

   C.   For which a                                  3                   3           $378,700
        management decision
        was made during the
        reporting period

        (i) dollar value of                         3*                  3*           $378,700
        disallowed costs*

        (ii) dollar value of                        0*                  0*                   $0
        costs not disallowed *

   D    For which no                                 1                   2            $22,900
        management decision
        had been made by the
        end of the reporting
        period


 *  Includes reports and recommendations where costs were both allowed and disallowed.




60   •  Statistical Performance Data
                                              Statistical Performance Data




OIG Reports Recommending Changes for Safety, Economy or Efficiency
October 1, 2008 – March 31, 2009


                                                                                          Number of
                                                                 Number of Reports     Recommendations

 A.   For which no management decision had been made by                      14                    39
      the start of the reporting period

 B.   Which were issued during the reporting period                          25                   140


      Totals (A+B)                                                           39                   179

 C.   For which a management decision was made during the                    23                   135
      reporting period

 D    For which no management decision had been made by                      18                    44
      the end of the reporting period




                                            # of Reports with                             # of Safety,
                          # of Total       Safety, Economy, or                            Economy, or
                       Reports for this         Efficiency           # of Total            Efficiency
      AUDIT TYPE       reporting Period    Recommendations       Recommendations       Recommendations

 Performance                     13                      11                  83                    78
 Financial                         6                       4                 45                    44
 Other                             1                       0                  0                     0
 Grants                          26                      10                  42                    18


 TOTALS                          46                      24                 170                   140




                                                                         Semiannual Report to Congress  •  61
 Management Decisions Regarding OIG Recommendations
 October 1, 2008 – March 31, 2009
 (Dollars in Thousands)


                              Number         Number of       Questioned   Unsupported     Funds to be
         Description         of Reports   Recommendations      Costs*        Costs      Put to Better Use

   Unresolved as of               29                72      $29,249             $0                 $0
   10/01/2008

   Audits with Findings           40               170      $28,365             $0        $401,600
   During Current
   Period

   Total to be                    69               242      $57,614             $0        $401,600
   Resolved

   Management Decisions
   Audits Prior                   10                26       $8,585             $0                 $0
   Period ‡

   Audits Current                 19               121       $4,522             $0        $378,700
   Period ‡

   Total Resolved                 29               147      $13,107             $0        $378,700

   Aging of Unresolved Audits*
   Less than 6 mos. old           23                49      $23,843             $0          $22,900
   6 mos. – 1 year                12                28       $7,946             $0                 $0
   1 year – 18 mos.                2                 4       $1,521             $0                 $0
   18 mos. – 2 years               3                 6      $11,196             $0                 $0
   Over 2 years old                2                 8           $0             $0                 $0

   Unresolved as of               42                95      $44,506             $0          $22,900
   03/31/2009


 ‡  –  Includes reports and recommendations where costs were both allowed and disallowed.
 *  –  Considered unresolved if management decisions have not been made on all report recommendations.


62   •  Statistical Performance Data
                                              Statistical Performance Data


Office of Inspector General Reports
October 1, 2008 – March 31, 2009

DEPARTMENTWIDE

Internal Audits: Performance/Attestation –1 report

                                                                                       Focus of Report/
     Report         Date                             Title                            Recommendations

MH-2009-046     03/31/2009   American Recovery and Reinvestment Act of 2009:     DOT will provide OIG with
                             Oversight Challenges Facing the Department of       a document outlining
                             Transportation                                      actions taken and planned
                                                                                 to address focus areas




Grant Audits: Audits of Grantee Under Single Audit Act – 26 reports

                                                                                       Focus of Report/
     Report         Date                             Title                            Recommendations

QC-2009-011     11/19/2008   State of Texas                                      Improve grantee oversight


QC-2009-014     01/13/2009   NYE County, Nevada                                  $105,072 questioned

QC-2009-015     01/13/2009   Bradford Regional Airport Authority                 $135,347 questioned


QC-2009-016     01/13/2009   Commonwealth Ports Authority                        $346,621 questioned


QC-2009-017     01/13/2009   Clark County, Nevada                                Improve grantee oversight


QC-2009-018     01/13/2009   City of Hutchinson, Kansas                          $90,379 questioned


QC-2009-019     01/13/2009   Orange County Transportation Authority              Improve grantee oversight


QC-2009-020     01/13/2009   City of Eufaula, Oklahoma                           $51,109 questioned


QC-2009-021     01/13/2009   Central Puget Sound Regional Transit Authority      Improve grantee oversight



                                                                          Semiannual Report to Congress  •  63
                                                                                                  Focus of Report/
        Report            Date                                   Title                           Recommendations

  QC-2009-022         01/13/2009       City of San Antonio, Texas                            $86,000 questioned


  QC-2009-023         01/13/2009       Dallas Area Rapid Transit                             Improve grantee oversight


  QC-2009-024         01/13/2009       City of Oakdale, California                           $1,008,584 questioned


  QC-2009-025         01/13/2009       State of Maine                                        $48,395 questioned


  QC-2009-026         01/13/2009       City of Baton Rouge and Parish of East Baton          Improve grantee oversight
                                       Rouge, Louisiana
  QC-2009-027         01/13/2009       Port of Seattle                                       Improve grantee oversight


  QC-2009-028         01/13/2009       City of Tulsa, Oklahoma                               $30,336 questioned


  QC-2009-029         01/13/2009       State of Hawaii, Department of Transportation,        Improve grantee oversight
                                       Highway Division
  QC-2009-030         01/13/2009       Jefferson County, Colorado                            Improve grantee oversight


  QC-2009-031         01/13/2009       Greater Cleveland Regional Transit Authority          $15,274 questioned


  QC-2009-035         02/18/2009       County of Shasta                                      $16,000 questioned


  QC-2009-036         02/18/2009       Puerto Rico Highways and Transportation Authority     Improve grantee oversight


  QC-2009-037         02/18/2009       North Delta Planning and Development District, Inc.   $306,000 questioned


  QC-2009-041         03/17/2009       State of Connecticut                                  $30,114 questioned


  QC-2009-042         03/17/2009       State of Minnesota                                    $19,448,000 questioned


  QC-2009-043         03/17/2009       State of Montana                                      $2,084,000 questioned


  QC-2009-044         03/20/2009       Comanche Nation                                       $163,430 questioned




64   •  Statistical Performance Data
                                                Statistical Performance Data


FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance/Attestation – 3 reports

                                                                                            Focus of Report/
     Report          Date                              Title                               Recommendations

AV-2009-012      12/15/2008    FAA’s Management and Maintenance of Air Traffic        FAA will focus on its
                               Control Facilities                                     existing air traffic control
                                                                                      facilities and effectively
                                                                                      transition to NextGen

AV-2009-039      03/03/2009    Actions Taken and Needed To Improve FAA’s              FAA will develop and
                               Runway Safety Area Program                             implement a plan to
                                                                                      improve Runway Safety

AV-2009-045      03/24/2009    FAA’s Process for Reporting and Investigating          FAA has initiated action to
                               Operational Errors                                     correct some the weak-
                                                                                      nesses




Internal Audits: Financial – 2 reports

QC-2009-006      11/10/2008    Quality Control Review of Audited Financial State-     Unqualified opinion on
                               ments for Audited Financial Statements for FY          financial statements
                               2008 and FY 2007
QC-2009-008      11/13/2008    Quality Control Review of Audited Financial State-     Unqualified opinion on
                               ments for FY 2008 and FY 2007                          financial statements




                                                                               Semiannual Report to Congress  •  65
 FEDERAL HIGHWAY ADMINISTRATION

 Internal Audits: Performance/Attestation – 2 reports

                                                                                                   Focus of Report/
        Report            Date                                 Title                              Recommendations

  MH-2009-013         01/12/2009       National Bridge Inspection Program: Assessment        Limited progress was
                                       of FHWA’s Implementation of Data-Driven, Risk-        made implementing
                                       Based Oversight                                       data-driven, risk-based
                                                                                             bridge oversight

  ZA-2009-033         02/05/2009       Oversight of Design and Engineering Firms’ Indirect   Put $30,200,000 to
                                       Costs Claimed on Federal-Aid Grants                   better use and $4,400,000
                                                                                             questioned




 FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

 Internal Audits: Performance/Attestation – 1 report

                                                                                                   Focus of Report/
        Report            Date                                 Title                              Recommendations

  MH-2009-034         02/06/2009       Status Report on NAFTA Cross-Border Trucking          Due to incomplete data,
                                       Demonstration Project                                 no demonstration has
                                                                                             been done to yield valid
                                                                                             results




66   •  Statistical Performance Data
                                             Statistical Performance Data


FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

                                                                                        Focus of Report/
     Report         Date                             Title                             Recommendations

CR-2009-038     02/24/2009   Enhancing the Federal Railroad Administration’s      FRA needs to revise its
                             Oversight of Track Safety Inspections                Track Safety Compliance
                                                                                  Manual




MARITIME ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

                                                                                        Focus of Report/
     Report         Date                             Title                             Recommendations

FI-2009-001     10/06/2008   Implementation of Controls Over Payments to          Payments were properly
                             Maritime Security Program Contractors                reduced and there were
                                                                                  sufficient controls on
                                                                                  payments to contractors




NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation – 1 report

                                                                                        Focus of Report/
     Report         Date                             Title                             Recommendations

FI-2009-032     02/04/2009   Inspector General Review of FY 2008 Drug Control     Conforms with the Office
                             Funds and Performance Summary Reporting              of National Drug Control
                                                                                  Policy Circular



                                                                           Semiannual Report to Congress  •  67
 NATIONAL TRANSPORTATION SAFETY BOARD

 Internal Audits: Financial – 1 report

                                                                                                   Focus of Report/
        Report            Date                                 Title                              Recommendations

  QC-2009-007         11/12/2008       Quality Control Review of Audited Financial State-   Unqualified opinion on
                                       ments For Fiscal Years 2008 and 2007                 financial statements




 OFFICE OF THE SECRETARY OF TRANSPORTATION

 Internal Audits: Performance/Attestation –3 reports

                                                                                                   Focus of Report/
        Report            Date                                 Title                              Recommendations

  FI-2009-002         10/07/2008       Interim Report on Award-Fee Criteria for the         Put $8,000,000 to better
                                       System Engineering and Technical Assistances II      use
                                       Contract
  FI-2009-003         10/08/2008       Audit of Information Security Program                Controls need to be
                                                                                            strengthened
  PT-2009-005         11/17/2008       Top Management Challenges                            Nine challenges identified




 Internal Audits: Financial – 2 reports


                                                                                                   Focus of Report/
        Report            Date                                 Title                              Recommendations

  QC-2009-009         11/14/2008       Quality Control Review of Consolidated Financial     Unqualified opinion on
                                       Statements for FY 2008 and FY 2007                   financial statements; put
                                                                                            $340,500,000 to better
                                                                                            use




68   •  Statistical Performance Data
                                                Statistical Performance Data




                                                                                            Focus of Report/
     Report          Date                              Title                               Recommendations

QC-2009-010      11/17/2008    Quality Control Review of Audited Special-Purpose     Unqualified opinion on
                               Financial Statements for FY 2008 and FY 2007          financial statements




RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

                                                                                            Focus of Report/
     Report          Date                              Title                               Recommendations

AV-2009-040      03/11/2009    The Joint Program Office’s Management of the          Put $22,900,000 to better
                               Intelligent Transportation Systems Program Needs      use
                               to be Improved




ST. LAWRENCE SEAWAY DEVELOPMENT CORP.

Internal Audits: Financial – 1 report

                                                                                            Focus of Report/
     Report          Date                              Title                               Recommendations

QC-2009-004      11/07/2008    Quality Control Review of Audited Financial State-    Unqualified opinion on
                               ments for FY 2008 and FY 2007                         financial statements




                                                                              Semiannual Report to Congress  •  69
 Office of Inspector General Congressional Testimonies
 October 1, 2008 – March 31, 2009


      Control No.         Date                                  Subject                                Before

  CC-2009-020         10/07/2008       Testimony to National Transportation Safety Board    National Transportation
                                       on January 2, 2008, Victoria, Texas, Motor Coach     Safety Board
                                       Accident

  CC-2009-037         02/11/2009       Key Issues for Reauthorizing the Federal Aviation    Committee on Transpor-
                                       Administration                                       tation and Infrastructure,
                                                                                            Subcommittee on Aviation
                                                                                            U.S. House of Represen-
                                                                                            tatives

  CC-2009-045         03/10/2009       Top Management Challenges Facing the Depart-         Committee on Appropria-
                                       ment of Transportation                               tions, Subcommittee on
                                                                                            Transportation, Housing
                                                                                            and Urban Development,
                                                                                            and Related Agencies
                                                                                            U.S. House of Represen-
                                                                                            tatives

  CC-2009-044         03/18/2009       Federal Aviation Administration: Actions Needed To   Committee on Transpor-
                                       Achieve Mid‑Term Next Generation Air Transporta-     tation and Infrastructure,
                                       tion System Goals                                    Subcommittee on Aviation
                                                                                            U.S. House of Represen-
                                                                                            tatives




70   •  Statistical Performance Data
                                                     Statistical Performance Data


Unresolved Recommendations Over 6 Months Old

Cited in Semiannual Report for October 1, 2004 – March 31, 2005


                         Title                           Report Number         Final Issue Date

Review of FAA’s Terminal Alternatives                    AV-2005-016          11/23/04




Cited in Semiannual Report for October 1, 2005 – March 31, 2006


                         Title                           Report Number         Final Issue Date

Air Carriers Use of Non-Certificated Repair Facilities   AV-2006-031          12/15/05




Cited in Semiannual Report for April 1, 2007 – September 30, 2007


                         Title                           Report Number         Final Issue Date

Review of Amtrak Board of Directors                      CR-2007-074          09/14/07
Washington Metropolitan Area Transit Authority           QC-2007-057          07/18/07
State of Minnesota                                       QC-2007-058          07/18/07




Cited in Semiannual Report for October 1, 2007 – March 31, 2008


                         Title                           Report Number         Final Issue Date

Oglala Sioux Tribe                                       QC-2008-037          03/06/08
Federated States of Micronesia National                  QC-2008-019          12/19/07
Government




                                                                         Semiannual Report to Congress  •  71
 Cited in Semiannual Report for April 1, 2008 – September 30, 2008


                           Title                       Report Number         Final Issue Date

  Capital Area Transit System                          QC2008008             09/30/08
  Federated States of Micronesia National              QC2008082             09/25/08
  Government




 Cited in Semiannual Report for April 1, 2008 – September 30, 2008


                           Title                       Report Number         Final Issue Date

  Northern Arizona Intergovenmental Public Transpor-   QC2008083             09/25/08
  tation Authority
  Government of Guam                                   QC2008085             09/25/08
  Massachusett Bay Transportation Authority            QC2008080             09/23/08
  City of Nashua                                       QC2008073             09/03/08
  Pioneer Valley Transit Authority                     QC2008075             09/03/08
  Tri-County Metropolitan Transportation District of   QC2008061             07/24/08
  Oregon
  Washington Metropolitan Area Transit Authority       QC2008062             07/24/08
  Commonwealth Ports Authority                         QC2008067             0724/08
  Pima County                                          QC2008068             07/24/08
  Review of FAA’s Oversight of Airlines’ Regulatory    QC2008082 AV2008057   06/30/08
  Partnership Programs and Internal Review Process




72   •  Statistical Performance Data
                                           Statistical Performance Data


Investigations
Judicial and Administrative Actions
October 1, 2008 - March 31, 2009


         Indictments                                                                43
         Convictions                                                                60
         Years Sentenced                                                            46
         Years Probation                                                            64
         Years Supervised Release                                                   85
         Hours of Community Service                                                380
         Employee Terminations                                                        4
         Employee Suspensions                                                         4
         Reprimand                                                                    3
         Resignation/Retirement                                                       4
         Counseling                                                                   3
         Debarment/Suspension                                                         7
         Decertified                                                                  1
         Federal funding redistributed                                                1
         Certificate/License Suspended/Revoked/Terminated                             2

                                         Financial Impact

         Fines                                                           $10,499,015
         Restitution/Civil Judgments                                       $3,875,098
         Recoveries                                                      $45,370,000

         Total                                                           $59,744,113


During the 6 month period covered by this report, 92 cases were opened and 41 were closed, leaving
a pending caseload of 436. In addition, 13 individuals/companies were referred for prosecution, 10
were accepted for prosecution, and 13 were declined.

                                                                   Semiannual Report to Congress  •  73
 Profile of All Pending Investigations as of 3/31/2009


                                                   Types of Cases

                                       Number of Contract/ Employee   Aviation   Motor     HazMat   Other
                                        Cases Grant Fraud Integrity    Safety    Carrier
                                                                                 Safety


  Federal Aviation Administration        184        18         52       92          0        7       15
  Federal Highway Administration         116      107           0        0          0        0        9
  Federal Motor Carrier Safety            56         0          4        0         34       11        7
  Administration
  Federal Railroad Administration          4         0          0        0          0        2        2
  Federal Transit Administration          28        26          0        0          0        0        2
  Maritime Administration                  4         1          2        0          0        1        0
  National Highway Traffic Safety          5         1          1        0          0        0        3
  Administration
  Office of the Secretary                 11         3          6        0          0        0        2
  Pipeline and Hazardous Materials        23         0          1        0          0       21        1
  Safety Administraion
  Research and Innovative                  5         1          4        0          0        0        0
  Technology Administration


  Totals                                436       157         70        92        34        42       41

  Percent of Total:                    100%        36%        16%      21%         8%      10%       9%




74   •  Statistical Performance Data
                             2008 Awards and Recognition




                        2008 Awards and Recognition



O          n November 7, 2008, a ceremony was held in Washington, DC
           to recognize the Office of Inspector General employees for their
           contributions over the preceding year. The Inspector General
also recognized OIG employees receiving awards for their accomplish-
ments from the Secretary of Transportation, the President’s Council on
Integrity and Efficiency, and other local, state, and Federal agencies and
councils.




                                                        Semiannual Report to Congress  •  75
                   Secretarial Awards and Recognition
                _____________________________

 Award for Meritorious Achievement
 This award is given by the Secretary in recognition of meritorious service to DOT and the Federal
 government, and for exceptional achievement which substantially contributed to the accomplishment
 of DOT’s mission or major programs.

               Tina B. Nysted,                              Robert C. Brautigam,
               Program Director                             Senior Special Agent
               JA-10 Atlanta, GA                            JRI-2 King of Prussia, PA



 Award for Excellence
 This award is granted to employees who have achieved outstanding performance in all aspects of
 their work, warranting special commendation.



               Joyce K. Mayeda,                             Sandra M. Roper,
               Administrative Assistant                     Investigative Program Technician
               JA-10 San Francisco, CA                      JRI-4 Atlanta, GA




76   •  2008 Awards and Recognition
                                          2008 Awards and Recognition


Team Award
This award is in recognition of meritorious contributions of high value to the Department in meeting
one or more of the Strategic Goals, and exceptional performance which results in the improvement,
reinvention, or reengineering of practices, operations, and customer service.



      OIG North American Free Trade Agreement Cross-Border Trucking
      Demonstration Project Team
      This team provided outstanding teamwork to review the Federal Motor Carrier Safety
      Administration’s NAFTA Cross-Border Trucking Demonstration Project.


               Joseph W. Comé, Assistant IG for Highway & Transit Audits
               Joan M. Becker, Project Manager
               Kimberley A. Bolding, Senior Auditor
               Christopher T. Brothers, Project Manager
               Patrick D. Conley, Senior Auditor
               Kathleen B. Conway, Analyst
               Constance B. Hardy, Senior Analyst
               Seth B. Kaufman, Associate Counsel
               Harriet E. Lambert, Writer-Editor
               Thomas K. Lehrich, Chief Counsel
               Michael Masoudian, Analyst
               Regan K. Maund, Analyst
               Calvin L. Moore II, Analyst
               Andrea J. Nossaman, Writer-Editor
               David P. Pouliott, Project Manager
               Anthony V. Saraco, Senior Auditor
               Rosa L. Scalice, Auditor
               Gerard J. Sheeran, Senior Auditor
               Anette Soto, Analyst
               Petra Swartzlander, Statistician
               Maurice Toval, Senior Auditor
               Marvin E. Tuxhorn, Senior Auditor
               Scott L. Williams, Analyst




                                                                    Semiannual Report to Congress  •  77
         Air Traffic Control Operational Errors Investigation Team
         This team’s exemplary investigative efforts resolved the reported misclassification
         of air traffic controller operational errors at FAA’s Dallas-Fort Worth Terminal Radar
         Approach Control Facility.


                   Richard C. Beitel, Jr. AIG for Washington Investigative Operations
                   Ronald C. Engler, Director of Special Investigations
                   Mark Gonzales, Senior Analyst
                   David P. Hooper, Senior Investigator
                   Erika S. Vincent, Assistant Director of Special Investigations


         OIG Air Carrier Safety Review Team
         This team’s exemplary efforts identified and corrected critical gaps in the regulatory
         safety oversight of a major U.S. air carrier.


                   Richard C. Beitel, Jr., AIG for Washington Investigative Operations
                   Curt L. Boettcher, Senior Analyst
                   Brian A. Dettelbach, AIG for Legal, Legislative and External Affairs
                   Lou E. Dixon, AIG for Aviation and Special Program Audits
                   Kevin F. George, Project Manager
                   Robin P. Koch, Project Manager
                   Jeannette M. McDonald, Senior Analyst
                   Andrea J. Nossaman, Writer-Editor
                   Tina B. Nysted, Project Manager
                   Mark D. Perrill, Senior Analyst
                   Galen L. Steele, Senior Auditor
                   Erika S. Vincent, Assistant Director of Special Investigations
                   Travis R. Wiley, Analyst




78   •  2008 Awards and Recognition
                                          2008 Awards and Recognition



                Inspector General Special Honors
            _____________________________

In Memory of…
The Office of Inspector General was saddened this year with the passing of one employee. This
individual is deeply missed and remembered fondly by his many friends and coworkers throughout
the OIG.

               David W. Brown, Management & Program Analyst
               JA-40 Fort Worth, TX
      Mr. Brown touched the hearts of the people he worked with and will be deeply
      missed. David joined the Office of Inspector General in 1989 as an auditor with the
      Fort Worth, Texas regional office. In his early years with the OIG, he worked on audits
      of mass transit agencies’ compliance with the Americans with Disabilities Act and
      several airport revenue, aviation inspection, and maritime audits. As a senior analyst,
      David became an integral part of nationwide audit and testimony teams that were
      instrumental in the achievement of important improvements in motor carrier safety
      enforcement programs and quality data used to monitor the trucking industry, as
      well as recommending improvements in airport security and airline customer service.
      David also provided integral expertise on numerous audit and congressional testimony
      assignments that focused on diverse issues across transportation spectrum, including
      the high profile cross-border trucking provisions of the North American Free Trade
      Agreement. David’s outstanding performance was recognized through the numerous
      OIG and PCIE awards he received throughout his 19 years with the OIG. He had many
      friends and colleagues in the OIG and we will all miss him a great deal.



U.S. Active Duty Military
The Secretary of Transportation will recognize U.S. Military Reservists and U.S. Department of
Transportation civilian employees called to active duty during this period

                                November 2007 – November 2008

                                         Peggy Moskaluk




                                                                      Semiannual Report to Congress  •  79
 Career Service Recognition
 The following current OIG employees will have attained a milestone in their Federal service career as
 of the end of this year.



         5 Years of Federal Service
                   Mitchell L. Behm
                   Sandra J. DePaulis
                   Joseph J. Hance
                   Bruce A. Quintero III
                   Amanda L. Watson


         10 Years of Federal Service
                   Ernestine M. Anderson
                   Jeffrey D. Ball
                   Christopher T. Brothers
                   Earnice D. Cox
                   Todd A. Damiani
                   Francis E. Danielski
                   Lisa Edouard
                   Matthew Farrugia
                   Heidi Ficke
                   Charnell Jenkins
                   Robert D. Mancuso
                   Malia S. Myers
                   Charmaine Newman
                   Mark D. Perrill


         15 Years of Federal Service
                   Jeannette M. Brown
                   LaRue Burks
                   Craig S. Furey
                   Rosalyn Millman
                   Douglas Shoemaker
                   Glenda L. White




80   •  2008 Awards and Recognition
                                 2008 Awards and Recognition



20 Years of Federal Service
       Terri A. Ahuruonye
       Sharon J. Ayers
       Mitchell N. Balakit
       Barbara L. Barnet
       Steven A. DeFazio
       Gloria B. Denmark
       Kevin Dorsey
       Michelle C. Hill
       Anne-Marie C. Joseph
       Earl G. Kindley
       Lissette Mercado
       Oleg Michalowskij
       Sean L. Woods
       Joseph M. Zschiesche


25 Years of Federal Service
       Theodore L. Doherty III
       Mary E. Hanson
       Emma Hernandez
       Deborah A. Kloppenburg
       Darren L. Murphy
       Robin Redd-Miller
       George F. Sullivan
       Stuart I. Weibel


30 Years of Federal Service
       Lou E. Dixon
       Larry A. McWilliams
       Christopher J. Minovich
       Hank W. Smedley
       Maria T. Sturniolo


35 Years of Federal Service
       Theodore P. Alves
       Michael P. Fruitman
       Carlton H. Hamilton
       Maurice Toval


                                             Semiannual Report to Congress  •  81
                       Inspector General Awards
                _____________________________

 Team Award
 This award is granted to an OIG office, team, or workgroup whose performance exemplifies teamwork
 and whose efforts contribute greatly toward the mission, goals, and operations of the Office of
 Inspector General.



         Legal Representation Team
         This team receives this award for zealous and effective legal representation of the
         Office of Inspector General.


                   Amy J. Berks, Associate Counsel
                   Seth B. Kaufman, Associate Counsel
                   Thomas K. Lehrich, Chief Counsel
                   Omer G. Poirier, Criminal Attorney


         North American Flight 1777 Audit Team
         This team receives this award for outstanding work and dedication in providing
         Congress, the Department of Transportation, the Department of Defense, and the
         Department of Homeland Security leadership critical information on actions needed
         to better coordinate the handling of U.S. Armed Forces returning from Iraq and
         Afghanistan.


                   Gerald L. Blumenthal, Auditor
                   Stephen L. Jones, Project Manager
                   Robert Y. Lee, Auditor
                   Judy W. Nadel, Senior Auditor




82   •  2008 Awards and Recognition
                                    2008 Awards and Recognition



Air Traffic Controller Facility Training Program Team
This team performed outstanding efforts in identifying key areas for improving the
effectiveness of FAA’s Air Traffic Controller Facility Training Program.


         Mi Hwa Button, Analyst
         Mark A. Gonzales, Senior Analyst
         Kevin M. Montgomery, Analyst
         Andrea J. Nossaman, Writer-Editor
         Erik A. Phillips, Senior Analyst
         Daniel R. Raville, Program Director
         Robert A. Romich, Project Manager
         Katherine A. Yutzey, Senior Analyst


IT Audit Computer Laboratory Team
This team receives this award in recognition of dedication and outstanding service to
improve OIG’s proficiency of cyber security audits.


         Vasily G. Gerasimov, Information Technology Specialist
         Dr. Ping Z. Sun, Program Director for IT Audit Computer Lab


Dulles Corridor Metrorail Project Team
This team receives this award for outstanding teamwork on identifying key risks facing
the Dulles Corridor Metrorail Project.


         Tyler C. Apffel, Project Manager
         Frank J. Schutz, Senior Auditor
         Thomas E. Yatsco, Program Director




                                                               Semiannual Report to Congress  •  83
         COOP Working Group Team
         This team receives this award for outstanding team performance producing the DOT/
         OIG Continuity of Operations Plan to strengthen efforts to ensure employee safety
         and perform critical functions during emergencies.


                   Amy J. Berks, Associate Counsel
                   Sabriena Bowen-Brown, Human Resources Specialist
                   Christopher T. Brothers, Project Manager
                   Jim H. Crumpacker, Director of National Investigative Programs & Operations
                   James F. Heminger, Senior Information Technology Specialist
                   Edith A. Makoge, Analyst
                   Charles A. Mitchell, Senior Analyst
                   Scott B. Stokes, Senior Special Agent
                   Leila G. Wieser, Writer-Editor


         Fraud Awareness DVD Team
         This team receives this award for exceptional work producing a fraud awareness
         video on false statements and claims to strengthen collaborative efforts aimed at
         the prevention and detection of fraud involving about $70 billion spent annually on
         Federal transportation projects.


                   Jim H. Crumpacker, Director of National Investigative Programs & Operations
                   Todd A. Damiani, Senior Special Agent
                   Theodore L. Doherty III, Special Agent-In-Charge
                   Michelle T. McVicker, Special Agent-In-Charge
                   Charles A. Mitchell, Senior Analyst
                   Omer G. Poirier, Criminal Attorney
                   George F. Sullivan, Senior Investigator
                   Eileen Vidal-Codispot, Supervisory Special Agent
                   Leila G. Wieser, Writer-Editor
                   Mary Baier, Connecticut DOT
                   Carl Gottschall, FHWA
                   Raymond Hulser, DOJ
                   Fred Wyshak, DOJ




84   •  2008 Awards and Recognition
                                  2008 Awards and Recognition



National Fraud Awareness Conference Team
This team receives this award for outstanding teamwork to ensure the 5th Biennial
National Fraud Awareness Conference on Transportation Infrastructure Programs held
in Chicago, IL was a success.


        Barbara L. Barnet, National Safety Program Investigations Coordinator
        Jim H. Crumpacker, Director of National Investigative Programs & Operations
        Vonya C. Matthews, Investigative Program Technician
        Michelle T. McVicker, Special Agent-In-Charge
        Sandra M. Roper, Investigative Program Technician
        Latonya D. Scott, Investigative Program Technician
        Lorena M. Simpson, Support Services Specialist
        Carlos A. Vazquez, Senior Special Agent
        Jacquie M. Wente, Senior Special Agent
        Jack Basso, AASHTO
        Michael Diavolikis, AASHTO
        Sherri Johnson, AASHTO
        Monica Russel, AASHTO
        Amie Seisey, AASHTO
        Jeff Heck, Illinois DOT
        Todd Hummert, Illinois DOT
        Dan Kennelly, Illinois DOT
        Gene Thomen, Illinois DOT
        Diane Trego, Illinois DOT
        Susan Turner, Illinois DOT
        Alison Perona, Chicago Transit Authority OIG




                                                            Semiannual Report to Congress  •  85
         DFW TRACON Investigation Team
         This team receives this award for exemplary investigative efforts in resolving the
         underreporting of air traffic controller operational errors at the DFW TRACON.


                   Ronald C. Engler, Director of Special Investigations
                   Mark A. Gonzales, Senior Analyst
                   David P. Hooper, Senior Investigator
                   Erika S. Vincent, Assistant Director of Special Investigations
                   Tony Ferrante, FAA
                   Joseph Teixeira, FAA
                   Nathan Enders, FAA
                   Chad Brewer, FAA
                   James Ryan, FAA


         New York Public Corruption Team
         This team receives this award for outstanding investigative accomplishments in
         combating corruption by public officials and thereby protecting the integrity of a
         Federally-funded program.


                   Matthew P. Farrugia, Senior Special Agent
                   Daniel M. Helzner, Senior Special Agent
                   Richard M. McGrade, Senior Special Agent
                   Robert J. Stanek, Senior Special Agent




86   •  2008 Awards and Recognition
                                        2008 Awards and Recognition



    Gohmann Asphalt Team
    This team receives this award for outstanding team effort in the investigation and
    civil prosecution of a case involving fraudulent core sampling on Federal-aid Highway
    projects resulting in a $8.2 million civil settlement.


            George F. Sullivan, Senior Investigator
            Benjamin Schecter, Assistant U.S. Attorney
            David Perkins, U.S. Attorney
            Phil Bezehrtny, U.S. Attorney
            Robert Tally, FHWA Indiana
            Jose Sepulveda, FHWA Kentucky



Award for Superior Achievement
    This is the highest award granted by the Inspector General. It recognizes performance
    of assigned duties in such an exemplary manner as to inspire others, demonstration
    of unusual initiative or skill in the development of new or improved work methods and
    procedures, and notable authorship.

         Thomas E. Yatsco,                                 Theodore L. Doherty III,
         Program Director                                  Special Agent-In-Charge
         JA-40 Washington, D.C.                            JRI-1 Cambridge, MA




                                                                  Semiannual Report to Congress  •  87
 Exceptional Civilian Service Award
         This is the second-highest award granted by the Inspector General, recognizing
         performance that is exceptional among peers, extraordinary results, and other
         exemplary performance as deemed by the Inspector General.


               Petra Swartzlander,                            Scott K. Macey,
               Statistician                                   Program Director
               JA-2 Washington, D.C.                          JA-10 San Francisco, CA

               Scott V. Harding,                              Gerard H. Tucker, Jr.
               Senior Investigator                            Senior Special Agent
               JI-3 Washington, D.C.                          JRI-2 Atlantic City, NJ



 Marguerite Christensen Award for Excellence in Administration
 This is the third-highest award in the OIG. It recognizes professionalism, technical excellence, and
 dedication in providing administrative support to the Office of Inspector General.


                   Louis H. Burrell III,
                   Information Technology Specialist
                   JM-40




 Manager of the Year Award
 This award is granted to managers who demonstrate exemplary contributions toward achieving the
 mission and goals of the OIG, and management of personnel and resources.



               Daniel R. Raville,                             Kerry R. Barras,
               Program Director                               Program Director
               JA-10 Washington, D.C.                         JA-40 Fort Worth, TX

               Terrence J. Letko,                             Gary Walker,
               Program Director                               Director of Investigative Case
               JA-60 Washington, D.C.                         Management Systems Office
                                                              JI-2 Washington, D.C.


88   •  2008 Awards and Recognition
                                           2008 Awards and Recognition


Supervisor of the Year Award
This award is granted to supervisors who demonstrate exemplary contributions toward achieving the
mission and goals of the OIG and management of personnel and resources.


           Stephen L. Jones,                               David P. Pouliott,
           Project Manager                                 Project Manager
           JA-10 San Francisco, CA                         JA-40 Washington, D.C.

           Betty A. Krier,                                 Dana L. Short,
           Project Manager                                 Project Manager
           JA-50 Washington, D.C.                          JA-60, Washington, D.C.

           Erika S. Vincent,                               Douglas Shoemaker,
           Assistant Director of Special                   Assistant Special Agent-In-
           Investigations                                  Charge
           JI-3 Washington, D.C                            JRI-2 New York, NY

                                 Joseph M. Zschiesche,
                                 Assistant Special Agent-In-Charge
                                 JRI-6 Fort Worth, TX




                                                                     Semiannual Report to Congress  •  89
 Employee of the Year Award
 This award is granted to employees who demonstrate dedication and special effort which exceed
 performance expectations and contribute significantly to the mission and goals of the Office of
 Inspector General.


               Seth B. Kaufman,                            Nathan P. Richmond,
               Associate Counsel                           Legislative Counsel
               J-3 Washington, D.C.                        J-3 Washington, D.C.

               Akilah A. Boston,                           Arnett Sanders,
               Analyst                                     Senior Auditor
               JA-2 Washington, D.C.                       JA-10 Washington, D.C.

               Mark D. Perrill,                            Tim D. Roberts,
               Analyst                                     Senior Auditor
               JA-10 Atlanta, GA                           JA-20 Oklahoma City, OK

               Oleg Michalowskij,                          Margaret E. Uckert,
               Senior Analyst                              Deputy Training Director
               JA-40 Washington, D.C.                      JM-20 Washington, D.C.

               Stacie A. Seaborne,                         Barbara L. Barnet,
               Analyst                                     National Safety Program
               JA-60 Washington, D.C.                      Investigations Coordinator
                                                           JI-2 Tallahassee, FL
               Leigh R. Hinson,
               Senior Special Agent                        Jennifer A. Blake,
               JRI-1 Cambridge, MA                         Senior Special Agent
                                                           JRI-1 Cambridge, MA
               Bradley D. Wheeler,
               Senior Special Agent                        Lisa A. Glazzy,
               JRI-4 Atlanta, GA                           Senior Special Agent
                                                           JRI-9 San Francisco, CA
               Steven K. Wilson,
               Accountant                                  Karen Y. Hayden,
               JM-30 Oklahoma City, OK                     Senior Information Technology
                                                           Specialist
                                                           JM-40 Washington, D.C.


90   •  2008 Awards and Recognition
                                           2008 Awards and Recognition



Paul W. Kimbrough, Sr. Award for Public and Community Service
This award is granted to any OIG employee who exhibits exceptional dedication to public/community
service, either associated with a DOT or other Federally-sponsored program or initiative, or privately
within his or her community.


               Ramon Sanchez, Jr.
               Assistant Special Agent-In-Charge
               JRI-4 Atlanta, GA



Administrative Professional of the Year Award
This award is granted to administrative or clerical employees who provide outstanding support to the
success of the organization or office.


            Larretha A. Blackmon,                             LaRue Burks,
            Administrative Support Assistant                  Secretary
            JA-10 Atlanta, GA                                 JA-40 Fort Worth, TX




                                                                      Semiannual Report to Congress  •  91
 New Employee Award
 This award is granted to new Federal employees who excel in performance of assignments and
 demonstrate significant initiative in developing and furthering their skills.


               Doneliya P. Deneva,                      Martha A. Morrobel,
               Auditor                                  Information Technology Specialist
               JA-10 Washington, D.C.                   JA-20 Washington, D.C.

               Ann R. Moles,                            Anette Soto,
               Information Technology Specialist        Analyst
               JA-20 Washington, D.C.                   JA-40 Washington, D.C.

               Jean A. Tanaka,                          Marjorie J. Tsaousis,
               Analyst                                  Analyst
               JA-40 Washington, D.C.                   JA-50 Washington, D.C.

               Matthew R. Williams,                     Yan Wang,
               Analyst                                  Information Technology Specialist
               JA-50 Washington, D.C.                   JM-40 Washington, D.C.




92   •  2008 Awards and Recognition
                                       2008 Awards and Recognition



  President’s Council on Integrity and Efficiency Awards
       _____________________________

Award for Excellence - Audit

    North American Free Trade Agreement (NAFTA) Team
    This team received the award for outstanding teamwork in ensuring the safety of the
    Federal Motor Carrier Safety Administration’s implementation of the North American
    Free Trade Agreement Cross-Border Trucking Demonstration Project.


            Joseph W. Comè, AIG for Highway & Transit Audits
            Joan M. Becker, Project Manager
            Kimberley A. Bolding, Senior Auditor
            Christopher T. Brothers, Project Manager
            Patrick D. Conley, Senior Auditor
            Kathleen B. Conway, Analyst
            Constance B. Hardy, Senior Analyst
            Seth B. Kaufman, Associate Counsel
            Harriet E. Lambert, Writer-Editor
            Thomas K. Lehrich, Chief Counsel
            Michael Masoudian, Analyst
            Regan K. Maund, Analyst
            Calvin L. Moore II, Analyst
            Andrea J. Nossaman, Writer-Editor
            David P. Pouliott, Project Manager
            Anthony V. Saraco, Senior Auditor
            Rosa L. Scalice, Auditor
            Gerard J. Sheeran, Senior Auditor
            Anette Soto, Analyst
            Petra Swartzlander, Statistician
            Maurice Toval, Senior Auditor
            Marvin E. Tuxhorn, Senior Auditor
            Scott L. Williams, Analyst




                                                                 Semiannual Report to Congress  •  93
 Award for Excellence – Multiple Disciplines

         AMTRAK Team
         This team received the award for outstanding efforts in monitoring AMTRAK, reporting
         to the Administration and the Congress on AMTRAK’s financial status, operational
         reforms and capital needs, and assisting the Congress on intercity passenger rail
         appropriation and reauthorization issues.


                   Mitchell L. Behm, Program Director
                   Keith A. Klindworth, Senior Economist
                   Betty A. Krier, Project Manager
                   Thomas K. Lehrich, Chief Counsel
                   Chia-Mei Liu, Economist
                   Debra L. Mayer, Project Manager
                   Ralph W. Morris, Senior Economist
                   Aaron M. Schwarz, Analyst
                   Tyron J. Sharpe, Economist
                   Marjorie J. Tsaousis, Analyst
                   Matthew R. Williams, Analyst




94   •  2008 Awards and Recognition
                                       2008 Awards and Recognition


Award for Excellence – Investigation

    Central Artery/Tunnel Project Investigation Team
    This team received the award for investigative excellence and dedication in securing
    numerous criminal convictions and recoveries of over $500 million on significant
    investigations of the Central Artery/Tunnel Project in Boston, Massachusetts.


            Jennifer A. Blake, Special Agent
            Theodore L. Doherty III, Special Agent-In-Charge
            Kevin R. Gaul, Senior Special Agent
            Leigh R. Hinson, Senior Special Agent
            Frank G. Italia, Senior Special Agent
            Peter W. Manning, Senior Special Agent
            Joseph B. McGovern, Assistant Special Agent-In-Charge
            Gerard H. Tucker, Jr., Senior Special Agent
            Leo Fila, FBI
            Philip Sliney, FBI
            Rebecca Zavala, FBI
            Gregory A. Splagounias, DOL /OIG
            Fred M. Wyshak, Assistant U.S. Attorney
            Jeffrey M. Cohen, Assistant U.S. Attorney
            Eugenia M. Carris, Assistant U.S. Attorney
            Anthony Fuller, Assistant U.S. Attorney
            Jason Barshak, Assistant U.S. Attorney
            Douglas Rice, Assistant Attorney General
            Deidre Roney, Assistant Attorney General
            Patrick Tarmey, Assistant Attorney General
            Stephanie LeBlanc, Engineer
            Deidre Nash, Engineer
            Mark Walsh, Massachusetts State Police Trooper




                                                                 Semiannual Report to Congress  •  95
 Glen/Roth Award for Exemplary Service

         Southwest Airlines Oversight Team
         This team received the award for outstanding performance in conducting audits and
         preparing multiple congressional testimonies identifying lapses in Federal Aviation
         Administration’s air carrier safety oversight and its implementation of regulatory
         partnership programs.


                   Curt L. Boettcher, Senior Analyst
                   Kevin F. George, Project Manager
                   Robin P. Koch, Project Manager
                   Jeannette M. McDonald, Senior Analyst
                   Andrea J. Nossaman, Writer-Editor
                   Tina B. Nysted, Project Manager
                   Mark D. Perrill, Analyst
                   Omer G. Poirier, Criminal Attorney
                   Galen L. Steele, Senior Analyst
                   Erika S. Vincent, Assistant Director of Special Investigations
                   Travis R. Wiley, Analyst




96   •  2008 Awards and Recognition
                                                    Mission and Organization



The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:


 •	 To conduct or supervise objective audits and investigations of the Department’s programs and
    operations;
 •	 To promote economy, effectiveness, and efficiency within the Department;
 •	 To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •	 To review existing and proposed laws or regulations affecting the Department and make recom-
    mendations about them;
 •	 To keep the Secretary of Transportation and Congress fully informed about problems in depart-
    mental programs and operations.

The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.

OIG is divided into two major units – audits and investigations - and six support units.




Offices in the major units are:

Audits and Evaluations
The Office of the Principal Assistant Inspector General for Auditing and Evaluations.

This office supervises and conducts all audit activities related to DOT programs and operations. This
office is divided according to specific DOT program areas into 5 sub-offices. The areas covered by
these offices are Aviation and Special Programs; Financial and Information Technology, Highway and
Transit Programs, Rail and Maritime programs and Economic Analysis, and Acquisition and Procure-
ment. Audit staff are located in headquarters and field offices across the country.




                                                                       Semiannual Report to Congress  •  97
  Investigations
  The Office of the Assistant Inspector General for Investigations.

  This office supervises and conducts OIG investigative activities related to DOT programs and opera-
  tions across the country. Investigative staff are located in field offices across the country.

  The Office of the Assistant Inspector General for Washington Investigative Operations.

  This office supervises and conducts OIG investigative activities in the Washington, DC area. This
  office also is responsible for the management of the OIG Hotline Complaint Center and activities
  generated by the complaints.




  Offices in the support units are:

  The Office of the Assistant Inspector General for Legal, Legislative and External Affairs.

  This office provides a full-range of professional legal services and advice, processes requests made
  under the Freedom of Information Act and Privacy Act, and reviews DOT’s proposed legislation and
  rulemaking.

  The Office of the Assistant Inspector General for Administration.

  This office is divided into 4 sub-offices. They are the Office of Procurement and Administrative Ser-
  vices, the Office of Budget and Financial Management, the Office of Human Resources, and the Office
  of Information Technology Management.

  The Office of Quality Assurance Reviews and Internal Affairs.

  This office under the direction of the Deputy Inspector General ensures that internal operations and
  functions are performed objectively and in an efficient and effective manner.




98   •  Mission and Organization
                                                           Mission and Organization
                                                                        Mission and Organization (cont.)




                                                 Inspector General




                                                      Deputy
                                                 Inspector General




                        Assistant Inspector
                                                                           Assistant Inspector
Assistant Inspector         General for          Principal Assistant                              Assistant Inspector
                                                                            General for Legal,
    General for             Washington          Inspector General for                                 General for
                                                                             Legislative, and
  Investigations           Investigative        Auditing & Evaluation                               Administration
                                                                             External Affairs
                            Operations




                        Assistant Inspector                               Assistant Inspector
Assistant Inspector                             Assistant Inspector                               Assistant Inspector
                        General for Financial                              General for Rail &
General for Aviation                            General for Highway                              General for Acquisition
                           & Information                                   Maritime Programs
& Special Programs                              & Transit Programs                                  & Procurement
                            Technology                                   and Economic Analysis




  Deputy Assistant                                Deputy Assistant
Inspector General for                           Inspector General for
  Aviation & Special                              Highway & Transit
      Programs                                        Programs




                                                                                Semiannual Report to Congress  •  99
                                         Contacts
           Inspector General
           Calvin L. Scovel III… ……………………………………………………………… (202) 366-1959

           Deputy Inspector General
           David A. Dobbs… ………………………………………………………………… (202) 366-6767

           Assistant Inspector General for Legal, Legislative, and External Affairs
           Brian A. Dettelbach… …………………………………………………………… (202) 366-8751

           Principal Assistant Inspector General for Auditing and Evaluation
           Ann Calvaresi-Barr………………………………………………………………… (202) 366-1427

           Assistant Inspector General for Investigations
           Timothy Barry……………………………………………………………………… (202) 366-1967

           Assistant Inspector General for Washington Investigative Operations
           Rick Beitel… ……………………………………………………………………… (202) 366-1972

           Assistant Inspector General for Aviation and Special Programs
           Lou Dixon………………………………………………………………………… (202) 366-0500

           Deputy Assistant Inspector General for Aviation and Special Programs
           Matt Hampton……………………………………………………………………… (202) 366-1987

           Assistant Inspector General for Financial and Information Technology
           Rebecca C. Leng… ……………………………………………………………… (202) 366-1407

           Assistant Inspector General for Highway and Transit Programs
           Joe Come… ……………………………………………………………………… (202) 366-5630

           Deputy Assistant Inspector General for Highway and Transit Programs
           Rosalyn Millman…………………………………………………………………… (202) 366-5630

           Assistant Inspector General for Rail and Maritime Programs and Economic Analysis
           David Tornquist… ………………………………………………………………… (202) 366-9970

           Assistant Inspector General for Acquisition and Procurement
           Mark Zabarsky… ………………………………………………………………… (202) 366-5225

           Assistant Inspector General for Administration
           Susan Dailey… …………………………………………………………………… (202) 366-1748




100   •  Contacts
                                                   Abbreviations




AF-OSI 	   Air Force Office of Special Investigations
AICPA 	    American Institute of Certified Public Accountants
AIP	       Airport Improvement Program
AIR-21	    Aviation Investment and Reform Act for the 21st Century
AAAE	      American Association of Airport Executives
ASAP	      Aviation Safety Action Programs
ASDE-X	    Airport Surface Detection Equipment-Model X
ATC	       Air Traffic Control
ATO	       Air Traffic Organization
ATOS	      Air Transportation Oversight System
CDLIS 	    Commercial Drivers License Information System
CDL 	      Commercial Drivers License
CFO 	      Chief Financial Officer
CID	       Criminal Investigations Division
CIO	       Chief Information Officer
DBE	       Disadvantaged Business Enterprise
DCAA	      Defense Contract Audit Agency
DCIS	      Defense Criminal Investigative Service
DHS 	      Department of Homeland Security
DOJ	       Department of Justice
DOT	       Department of Transportation
EPA	       Environmental Protection Agency
FAA	       Federal Aviation Administration
FBI	       Federal Bureau of Investigation
FHWA	      Federal Highway Administration
FISMA	     Federal Information Security Management Act
FMCSA	     Federal Motor Carrier Safety Administration
FRA	       Federal Railroad Administration
FTA	       Federal Transit Administration
FTI	       FAA Telecommunications Infrastructure
FY	        Fiscal Year
GAO	       Government Accountability Office




                                              Semiannual Report to Congress  •  101
                    HAZMAT	       Hazardous Material
                    HTF	          Highway Trust Fund
                    IG	           Inspector General
                    IRB	          Investment Review Board
                    IRS	          Internal Revenue Service
                    IT	           Information Technology
                    JPDO	         Joint Planning and Development Office
                    MARAD	        Maritime Administration
                    MCSIA	        Motor Carrier Safety Improvement Act
                    MOU	          Memorandum of Understanding
                    MTA	          Metropolitan Transportation Authority
                    NAFTA	        North American Free Trade Agreement
                    NATCA	        National Air Traffic Controllers Association
                    NAS	          National Airspace System
                    NCIS	         Naval Criminal Investigative Service
                    NDR	          National Driver Register
                    NHTSA	        National Highway Traffic Safety Administration
                    NTSB	         National Transportation Safety Board
                    OA	           Operating Administration
                    OCIO	         Office of Chief Information Office
                    OIG	          Office of Inspector General
                    OMB	          Office of Management and Budget
                    OPM	          Office of Personnel Management
                    OSI	          Office of Special Investigations
                    OST	          Office of the Secretary of Transportation
                    PCIE	         President’s Council on Integrity and Efficiency
                    PHMSA	        Pipeline and Hazardous Materials Safety Administration
                    QCR	          Quality Control Review
                    RITA	         Research and Innovative Technology Administration
                    SAFETEA-LU	   Safe, Accountable, Flexible, Efficient Transportation
                    	             Equity Act: A Legacy for Users
                    SAS-70	       Statement on Auditing Standards Number 70
                    SafeStat	     Safety Status Measurement System
                    SLSDC	        St. Lawrence Seaway Development Corporation




102   •  Abbreviations
  U.S. Department of Transportation
     Office of Inspector General
    1200 New Jersey Avenue, S.E.
       Washington, D.C. 20590

Hotline to report fraud, waste, and abuse:
     Phone     800-424-9071
        Fax    540-373-2090
      Email    hotlline@oig.dot.gov
 OIGWebsite    http://www.oig.dot.gov
